<html>
<title> - FISCAL YEAR 2006 DRUG CONTROL BUDGET AND THE BYRNE GRANT, HIDTA AND OTHER LAW ENFORCEMENT PROGRAMS: ARE WE JEOPARDIZING FEDERAL, STATE AND LOCAL COOPERATION?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
  FISCAL YEAR 2006 DRUG CONTROL BUDGET AND THE BYRNE GRANT, HIDTA AND 
OTHER LAW ENFORCEMENT PROGRAMS: ARE WE JEOPARDIZING FEDERAL, STATE AND 
                           LOCAL COOPERATION?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2005

                               __________

                           Serial No. 109-37

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform





  FISCAL YEAR 2006 DRUG CONTROL BUDGET AND THE BYRNE GRANT, HIDTA AND 
OTHER LAW ENFORCEMENT PROGRAMS: ARE WE JEOPARDIZING FEDERAL, STATE AND 
                           LOCAL COOPERATION?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2005

                               __________

                           Serial No. 109-37

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2005
22-201 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
              Nicholas Coleman, Professional Staff Member
                           Malia Holst, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 10, 2005...................................     1
Statement of:
    Brooks, Ron, president, National Narcotics Officers 
      Associations Coalition.....................................    66
    Carr, Tom, Director, Washington-Baltimore HIDTA, on behalf of 
      the National HIDTA Directors Association...................    75
    Donahue, Tom, Director, Chicago HIDTA........................    90
    Hamm, Leonard, acting Baltimore police commissioner..........   127
    Harris, Chief Jack, Phoenix Police Department and vice-chair, 
      Southwest Border HIDTA.....................................   107
    Henke, Tracy A., Associate Deputy Attorney General, Office of 
      Justice Programs, Department of Justice; Catherine M. 
      O'Neil, Associate Deputy Attorney General and Director of 
      Organized Crime Drug Enforcement Task Forces, U.S. 
      Department of Justice; and John Horton, Associate Deputy 
      Director, State and Local Affairs, Office of National Drug 
      Control Policy.............................................    20
        Henke, Tracy A...........................................    20
        Horton, John.............................................    43
        O'Neil, Catherine M......................................    30
    Henry, Mark, president, Illinois Drug Enforcement Officers 
      Association................................................   134
    Merritt, Jack L., Greene County, MO..........................   141
Letters, statements, etc., submitted for the record by:
    Brooks, Ron, president, National Narcotics Officers 
      Associations Coalition, prepared statement of..............    70
    Carr, Tom, Director, Washington-Baltimore HIDTA, on behalf of 
      the National HIDTA Directors Association, prepared 
      statement of...............................................    78
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    12
    Donahue, Tom, Director, Chicago HIDTA, prepared statement of.    93
    Hamm, Leonard, acting Baltimore police commissioner, prepared 
      statement of...............................................   129
    Harris, Chief Jack, Phoenix Police Department and vice-chair, 
      Southwest Border HIDTA, prepared statement of..............   109
    Henke, Tracy A., Associate Deputy Attorney General, Office of 
      Justice Programs, Department of Justice, prepared statement 
      of.........................................................    23
    Henry, Mark, president, Illinois Drug Enforcement Officers 
      Association, prepared statement of.........................   136
    Horton, John, Associate Deputy Director, State and Local 
      Affairs, Office of National Drug Control Policy, prepared 
      statement of...............................................    45
    Merritt, Jack L., Greene County, MO, prepared statement of...   144
    O'Neil, Catherine M., Associate Deputy Attorney General and 
      Director of Organized Crime Drug Enforcement Task Forces, 
      U.S. Department of Justice, prepared statement of..........    32
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5


  FISCAL YEAR 2006 DRUG CONTROL BUDGET AND THE BYRNE GRANT, HIDTA AND 
OTHER LAW ENFORCEMENT PROGRAMS: ARE WE JEOPARDIZING FEDERAL, STATE AND 
                           LOCAL COOPERATION?

                              ----------                              


                        THURSDAY, MARCH 10, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Souder (chairman 
of the subcommittee) presiding.
    Present: Representatives: Souder, Cummings, Watson and 
Norton.
    Staff present: J. Marc Wheat, staff director; Nicholas 
Coleman, professional staff member and counsel; David Thomasson 
and Pat DeQuattro, congressional fellows; Malia Holst, clerk; 
Andrew Su, minority professional staff member; and Jean Gosa, 
minority clerk.
    Mr. Souder. The subcommittee will now come to order.
    Good afternoon and thank you all for coming. This hearing 
is the second in a series of hearings providing oversight of 
the President's budget proposals for drug control programs as 
well as for legislation to reauthorize the Office of National 
Drug Control Policy and the High Intensity Drug Trafficking 
Areas program.
    This hearing will focus on the President's proposed changes 
to some very important drug enforcement programs. The 
administration released its budget proposal for all Federal 
programs for fiscal year 2006 last month. One of the most 
significant policies reflected in that budget is a proposal to 
cut most Federal support for State and local drug enforcement. 
Among other things, the administration is proposing to 
eliminate the Byrne Grant to State and local law enforcement, 
to cut the HIDTA Program by more than 50 percent and transfer 
its remaining funds to the Justice Department's Organized Crime 
Drug Enforcement Task Force program, to cut the ``Meth Hot 
Spots'FE administered by the Justice Department's Community 
Oriented Policing Services office by more than 60 percent, and 
to significantly reduce the funding for the Counterdrug 
Technology Assessment Center Technology Transfer program.
    The subcommittee shares some of the administration's 
concerns about excessive or misdirected Federal support to 
local agencies. It is certainly true that Federal dollars 
should not be spent on purely local concerns in the form of 
pork barrel funding. Rather, they should be tied to clear, 
national priorities. Similarly, Congress must be careful not to 
make State and local agencies too dependent on Federal dollars 
as these agencies must remain under the control of and respond 
to the needs of State and local taxpayers. State and local 
governments have a responsibility to fund their own counter 
narcotics efforts.
    That being said, it does not follow that all Federal 
assistance to State and local agencies lacks national impact. 
State and local law enforcement personnel are fighting on the 
front lines in the struggle to stop drug trafficking. They make 
over 90 percent of drug-related arrests and seizures. They have 
a wealth of intelligence that could be very valuable if shared 
with Federal authorities. Federal assistance to these agencies 
can have a major positive impact by involving them in national 
goals and enforcement, treatment and prevention. The proper 
solution is to propose reforms to the programs rather than 
simply cutting them out.
    We hope at this hearing to address these broader issues and 
to review the administration's specific proposals for certain 
key programs. First among them is the HIDTA Program. This 
program was created in 1990 to help reduce the Nation's overall 
supply of illegal drugs by bringing together Federal, State and 
local law enforcement agencies in the most significant regions 
each referred to as a HIDTA, High Intensity Drug Trafficking 
Area where drugs were created, smuggled or distributed.
    Under the current law, the Director of ONDCP may designate 
certain areas as HIDTAs making them eligible for Federal 
funding. That funding is administered locally by an executive 
board made up of equal representation of Federal agencies on 
one side and State and local agencies on the other. As the 
budget's program has grown from only $25 million at its 
inception, to $228,350,000 in fiscal year 2005. The number of 
designated regions has grown as well, from the initial five 
HIDTAs in 1990, the program has expanded to 28 HIDTAs and 
pressure is building in Congress to create even more.
    As the program has expanded, its focus has frequently 
drifted from activities that are truly targeted at the national 
supply of drugs to activities with primarily a regional or 
local impact. Congress itself has exacerbated the problem by 
refusing to allow ONDCP sufficient discretion over the 
program's budget. For many years, appropriations bills have 
forbidden ONDCP from funding at below its previous year's level 
effectively locking in $206 million of its budget. ONDCP has 
had true discretion over less than 10 percent of the program's 
funds.
    In response to these difficulties, the administration has 
proposed cutting the program's budget from fiscal years 2005 at 
an active level of $228,350,000 to $100 million. Even more 
significantly, the administration has requested that the 
remaining $100 million be funded through the Organized Crime 
Drug Enforcement Task Force, a Department of Justice program. 
If enacted, this proposal would effectively terminate the 
current HIDTA program and more or less eliminate the Drug 
Czar's Office.
    The subcommittee agrees with the administration that the 
HIDTA Program is in need of some reform. The administration's 
proposal, however, is both premature and too sweeping. First, 
the program cannot and should not be transferred in hold or in 
part to OCDETF without authorizing legislation. Such 
legislation is needed to define the goals of the program and 
the means of its implementation.
    Second, the subcommittee is mindful of the serious 
disruption of drug enforcement activities in the individual 
HIDTAs that this sweeping proposal would create, at least in 
the short term. It would be very undesirable for the Federal 
Government to take action that drives away State and local 
participants. The subcommittee will, however, carefully study 
the administration's proposal as it continues to work on the 
reauthorization of HIDTA and ONDCP.
    Today's hearing will also review the CTAC Program which was 
established in 1990 to oversee and coordinate the Federal 
Government's anti-drug research and development. The 
administration is requesting only $30 million for the CTAC 
Program, a sharp decrease from the $40 million requested from 
fiscal year 2005 and the $42 million appropriated by Congress. 
The proposed decreases would cut the research program nearly in 
half from $18 million to $10 million while reducing the 
technology transfer program by $4 million from $24 million to 
$20 million.
    The program is certainly in need of greater direction and 
oversight. ONDCP has not yet demonstrated that the technology 
transfer program supports national goals in reducing overall 
drug trafficking and improving interagency communication and 
cooperation. Such dramatic cuts, however, do not amount to 
reform. They will only exacerbate the tensions within the 
program.
    As with HIDTA, the subcommittee intends to review the CTAC 
Program and its future as it continues its work on the 
reauthorization of ONDCP and its programs. The subcommittee has 
concerns about the proposed reduction in the COPS ``Meth Hot 
Spots'FE dedicated to local law enforcement activities against 
methamphetamine trafficking. Methamphetamine abuse has ravaged 
communities across the United States and put several severe 
strains on State and local law enforcement agencies forced to 
find clandestine drug labs, clean up the environmental damage 
they create and arrest the drug trafficking rings that operate 
them.
    To assist these overburdened agencies, Congress approved 
$54,050,000 in fiscal year 2004 and $52,556,000 in fiscal year 
2005. The administration is requesting only $20 million for the 
fiscal year 2006, identical to their last year's request which 
was more than doubled, a cut of more than 60 percent from the 
appropriated funds from last year. This would greatly reduce 
the ability of State and local law enforcement agencies to help 
their Federal partners in reducing methamphetamine abuse 
particularly given the proposed overall reduction in State and 
local law enforcement assistance grants.
    The subcommittee also has serious concerns about the 
administration's proposal to terminate the State grants 
component of the Edward Byrne Memorial Justice Grant Program. 
Congress already complied with the administration's request to 
consolidate previously separate grants programs into a single 
Byrne Grant Program. The administration now proposes to 
eliminate the $634 million that Congress appropriated last year 
for the Byrne grants and restrict Federal to a series of 
enumerated grants most of which are previously existing 
programs under a ``Justice Assistance Account.'FE In practice, 
this will sharply limit the amount of money available to help 
State and local agencies.
    The subcommittee shares the administration's concerns about 
excessive Federal subsidization of State and local law 
enforcement. The administration's proposed cuts, however, would 
create massive shortfalls in the budget of State and local law 
enforcement agencies across the country. I believe the 
administration should instead propose reforms where needed to 
some of the Federal Government's assistance grants.
    We have quite a mix of witnesses with us today and we would 
especially like to welcome all the representatives of the 
Federal, State and local law enforcement community joining us 
here at this time. From the Department of Justice on our first 
panel, we will hear from Tracy Henke, Deputy Associate Attorney 
General at the Office of Justice Programs who will discuss the 
Byrne grants, COPS and similar Justice assistance programs and 
Catherine O'Neil, Associate Deputy Attorney General and 
Director of OCDETF who will discuss the proposed transfer and 
restructuring of the HIDTA program. We will also hear from John 
Horton, Associate Deputy Director at ONDCP for State and Local 
Affairs.
    The second panel will give us the State and local 
perspective. We welcome Ron Brooks, president of the National 
Narcotics Officers' Associations Coalition and Director of the 
North California HIDTA. Ron has been very active with our 
committee and at many, many hearings helping us with that. Tom 
Carr is director of the Washington-Baltimore HIDTA; Tom 
Donahue, Director of the Chicago HIDTA, Chief Jack Harris of 
the Phoenix Police Department and Vice-Chair of the Southwest 
Border HIDTA, Leonard Hamm, the acting Baltimore police 
commissioner, Mark Henry, president of the Illinois Drug 
Enforcement Officer's Association, and Sheriff Jack L. Merritt 
of Greene County, MO.
    Again, thank you all for coming from so many places across 
the Nation to be here today. We look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. I will now yield to the Ranking Member, Elijah 
Cummings.
    Mr. Cummings. Thank you, Mr. Chairman.
    As I listened, I could not help but think about the fact 
that when we had one of our last hearings, when the Drug Czar 
came in and talked about the cuts, I asked him how he felt 
about these cuts and he said that he was satisfied with what 
was going on. I have to tell you that since that hearing I have 
heard from so many people who watched it, and they were very 
concerned. I think we would be more than remiss if we did not 
understand that the money simply isn't there. We can debate 
from now until 1,000 years from now why it isn't there but it 
is not there. The fact is, then it becomes a question of 
priorities with the money we do have.
    One thing I must give you credit for, Mr. Chairman, and I 
really appreciate this, is that you have consistently stayed on 
point with regard to making sure that while we address the War 
on Terrorism, we acknowledge the fact that we have some 
terrorists in our own neighborhoods. Many of them have become 
that way because of drugs. Some of the people who are here, 
those who fight drugs every day know exactly what I am talking 
about. They fully understand that there are people who are 
watching us right now who are much more afraid of something 
happening to them on their street than from some terrorist from 
overseas. So it is that we have to I think put all of this in 
context and try now to figure out the money we do have, how to 
make sure we use it effectively and efficiently.
    I have said many, many times that one thing Republicans and 
Democrats agree on is that the taxpayer's dollars must be spent 
effectively and efficiently. The President's budget request for 
fiscal year 2006 proposes significant changes in the national 
drug control budget. Most significantly, there is a 
considerable increase in proportional spending for supply 
reduction versus demand reduction programs. Demand reduction 
accounts for just 39 percent of the restructured drug control 
budget down from 45 percent in fiscal year 2005, the budget as 
enacted. There is actually a net decrease of $270 million for 
demand reduction compared to the fiscal year 2005 enacted 
level.
    This is deeply troubling to those of us in Congress who 
would like to see an increased commitment to prevention and 
treatment programs that reduce the consumption of drugs. Even 
on the supply reduction side of the budget, where the goal is 
to reduce drug use by driving up the price and eroding the 
purity of drugs available on the U.S. streets, there are stark 
changes in the budget the President has submitted to this 
Congress.
    There is an increased commitment to international supply 
reduction programs while domestic drug enforcement programs 
that support State and local efforts and partnerships between 
Federal law enforcement and the State and local counterparts 
would suffer elimination or sharp decreases. Many of these 
relationships have been established over the years. Many of 
these relationships are ones that have become very, very 
effective, are cost efficient and effective.
    The administration argues, for example, that programs such 
as community oriented policing services, hiring grants, COPS 
law enforcement technology grants, Byrne Justice Assistance 
Grants and Byrne Discretionary Grants have not had a 
demonstrably effective impact on reducing crime. The 
administration therefore proposes to eliminate these programs 
claiming it will save $940 million a year.
    In addition, the President's request proposes to slash the 
budget of the HIDTA Program, reducing its funding from a fiscal 
year 2005 level of $227 million to $100 million, a decrease of 
56 percent, and to move HIDTA from the Office of National Drug 
Control Policy to the Department of Justice where it would come 
under the control of Organized Crime Drug Enforcement Task 
Force programs.
    I am not knocking that program but one thing is for sure, I 
believe HIDTA would be better off the way it is. I don't want 
it to get lost in the Justice Department. We have too many 
people who are depending on HIDTA to do the things that HIDTA 
does. I haven't looked at all the testimony but I think some of 
the folks here today who deal with HIDTA can tell us what they 
see. We have to listen to them very carefully because these are 
the people on the front lines. They are the one who have to 
face the officers, who have to face the families of those who 
may be killed or injured, they are the ones who have to worry 
about the people under their jurisdiction. So they are not 
sitting in some nice high office just looking down as if from 
heaven, they are dealing with this every day.
    The proposed reductions to the above-mentioned programs 
would sharply reduce the level of Federal support for law 
enforcement programs that involve coordination among Federal, 
State and local entities. We are always talking about local, 
State and Federal entities working together so there is not 
duplication of effort, so they can be most effective when they 
bring all of their intelligence and all of their resources 
together.
    What is striking about the proposal is that rather than 
propose reforms to these programs, this budget reflects the 
President's decision to abandon or sharply curtail them. 
Problems in the Byrne Grant Program have been well publicized. 
The Narcotics Task Force funded through the Byrne Program has 
committed severe abuses, more egregiously in the case of Tulia, 
Texas where a Byrne-supported task force ran amuck, pursuing 
racially motivated investigations and prosecutions.
    None of us can stand behind the rampant abuse of civil 
rights by law enforcement efforts supported with Federal 
dollars, but the Byrne Grant Program supports a range of 
activities aimed at increasing safety in communities around the 
country that are affected by violent crime. I would like to see 
an effort to make this program work as Congress intended 
instead of doing away with the program as the President 
proposes.
    Let me tell you something. Having practiced law for over 20 
years, I can tell you no matter what you do and no matter what 
structure you create, you are going to have some abuse but you 
don't throw the baby out with the bath water.
    However, I am most concerned about the proposed 
evisceration of the HIDTA Program. HIDTA is widely credited 
with having broken down barriers among participating local, 
State and Federal agencies and HIDTAs around the country can 
demonstrate numerous such successes and innovations that have 
had a positive impact on the national drug threat. Under the 
President's proposal, numerous HIDTAs would surely be 
eliminated and the scaling back of others would severely 
curtail their effectiveness.
    Successful nationwide programs developed and administered 
by individual HIDTAs such as event and target deconfliction of 
enforcement operations, intelligence collection and sharing, 
and training programs would be significantly reduced or 
discontinued. An effective interagency partnership that place 
State and local agencies on an equal footing with their Federal 
counterparts would wither or disappear.
    The Washington-Baltimore HIDTA approach which combines a 
coordinated implementation of intelligence-driven law 
enforcement, treatment and prevention initiatives, ought to be 
held up by this administration as a model to be replicated in 
areas that face similar threats.
    I am not sure about this but I would guess that when you do 
have the Federal Government, local government and State 
government working together, just the experience in and of 
itself of working together makes all of them better. It 
certainly makes the Federal people more sensitive to what local 
and State people are doing, and it gives our local and State 
officers an opportunity to see how the Federal level operates.
    Instead, I fear that the administration's proposal will 
cripple the Washington-Baltimore HIDTA and eliminate the few 
treatment and prevention dollars used by a handful of HIDTAs. 
That would be unfortunate, but I am heartened by the fact that 
the administration's proposal for HIDTA has drawn such an 
intense negative reaction from the law enforcement community 
and from many Members of Congress including you, Mr. Chairman, 
who recognize HIDTA's value. It seems to me we can acknowledge 
that HIDTA's rapid growth has created challenges related to its 
mission cohesion, but the correct response is not to throw it 
out as the administration proposes to do with this budget 
request.
    The fundamental character and unique system of 
accountability of the HIDTA Program will be lost if it is 
merged with the Organized Crime and Drug Enforcement Task Force 
whose mission is complementary but distinct. Contrary to the 
administration's claims, this change will not improve the 
effectiveness of U.S. drug enforcement efforts. Rather, it will 
weaken them while increasing the burden on State and local 
jurisdictions already struggling within severe budget 
constraints.
    Today's hearing offers an important opportunity to hear 
from administration officials who have responsibility to 
administer the law. I welcome their perspectives as well as Tom 
Carr, the Washington-Baltimore HIDTA's outstanding director, 
the directors of the Chicago and Southwest Border HIDTAs, the 
National Narcotics Officers Association, and State and local 
law enforcement agencies represented on the second panel.
    I would like to specifically recognize Acting Commissioner 
Leonard Hamm of the Baltimore City Police Department who has 
taken the time to be with us today.
    With that said, Mr. Chairman, I look forward to working 
with you to find constructive solutions to the issues that keep 
some of the aforementioned programs from being most effective 
and to protect those programs that have demonstrated their 
effectiveness, the administration's assessment notwithstanding. 
Today's hearing and future hearings related to ONDCP 
reauthorization will provide a forum for this important 
bipartisan work.
    I must tell you my mother has a saying. She only had a 
first grade education but something she often said was she 
hates to see motion, commotion, and emotion but no results. In 
other words, it is nice to hold the hearings but we have to 
make sure that we get this administration to hear the people 
who are on the front lines so they can more effectively and 
continue to effectively do their job. To all of them, if I 
don't get a chance to say it again, I want to thank all of you 
who are out there. You have a tough job. I really thank you on 
behalf of the many, many citizens who may never know what you 
do but on behalf of the Congress of the United States of 
America, we thank you.
    With that, Mr. Chairman, I yield.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
    Mr. Souder. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman, and thank you for 
today's hearing.
    It is going to be hard to take seriously Federal drug 
control efforts if the President's budget before us survives. 
Whenever there are programs that link various actors in our 
system, there are problems that arise that need to be 
eliminated. There needs to be a continuous approach to 
correction, but one of the most important connections in drug 
control efforts has been the link that has been built up over 
the last several years between Federal, State and local actors. 
By building those links, we built in efficiencies and avoided 
costly redundancies. There may also be problems that were built 
in. I happen to believe that the only way to do a reform is to 
keep reforming, particularly if you are talking about 
government.
    We are looking at cuts that are lethal to drug enforcement. 
We are talking about cuts of 50 or 60 percent of a program. 
Those are cuts meant to do away with a program. I would almost 
rather you shoot this animal in the head than let him die a 
slow death this way.
    I think what is particularly dangerous here is that all 
these cuts would apparently take place at one time. Perhaps if 
there need to be cuts, cuts could be spread out so that they 
could be done very carefully over a period of years and would 
not disrupt law enforcement efforts and might be acceptable but 
huge cuts like this to happen to programs and assume that any 
part of them will be effective, that is the problem here. Can 
you cut a program in half and still expect it to be effective 
in any way, particularly if you do so at one time?
    What bothers me most is that cuts as gargantuan as this 
occurring at one time will create enormous opportunities for 
drug forces. They must be applauding on the sidelines because 
what we are doing if these cuts take place at one time in one 
budget is create new sources of business for them, new routes, 
and worse, destroy much of the work that has been done so 
painfully over the years. This is one of the hardest jobs in 
law enforcement and in government.
    As I looked at what is attempted in this budget, I didn't 
see any area of the country that would find the effort we have 
built up over the last decade or so recognizable, whether you 
are talking about big cities of the kind that Mr. Cummings and 
I come from where the drug problem is right before your eyes 
because of conditions in those cities and let us call it what 
it is, the elimination of the COPS Program which is being set 
up for total elimination, including the ``Meth Hot Spots`` 
Program that is, I take it, one of the chairman's favorites, or 
at least we have had a lot of hearings on meth.
    To be sure, programs like HIDTA have grown and spread, you 
have such a program that started where drugs were most visible, 
the spots where they have been most concentrated since I was a 
kid, the New Yorks, the border areas and yes, that has grown. 
Maybe we ought to look at that because now many areas are 
covered by that same program. If I may say so, it is also the 
case that drugs have spread from their usual places. They are 
no longer only in the New Yorks, New Jerseys, Miamis, LAs, they 
are everywhere in this country and so, yes, we need these 
programs that link Federal, State and local law enforcement 
officials everywhere now. Yes, that costs money. We can spend 
it one way or we can spend it another.
    The ranking member and I have long been on record, and I 
believe the chairman would like to spend more money in the 
usual course of business on preventing people from getting to 
the point where they are serious users of drugs, even the 
demand parts of these programs are going to be cut.
    I don't know what it is you can do about this. I do know 
that drug control has been an area which, under your 
chairmanship, we have put in a great deal of time and effort 
and concentration. I hope in some way we can match what you 
have been doing in the two or three terms I have been on this 
committee with this budget so that what is left standing is 
something that we will not be ashamed of.
    I want to particularly thank today's witnesses who are on 
the front line, in the front ranks of those doing one of the 
toughest jobs in America. Thank you for coming to share your 
information and your knowledge with us.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    Let me assure all members of this committee that we will 
need to work together. I talked to Chairman Wolf again this 
afternoon and told him we were doing this hearing as well as 
Chairman Nohlenberg and Chairman Lewis, so we certainly are 
going to work with the appropriators and work to try to make 
sure that authorizing language and appropriating language, and 
I also talked to Chairman Sensenbrenner on a recent trip, so 
clearly we need to get authorizing and appropriating to work 
together. This is an important discussion. I appreciate the 
witnesses coming today.
    First, a couple of procedural matters. First, I ask 
unanimous consent that all Members have 5 legislative days to 
submit written questions and statements for the hearing record, 
that any answers to written questions provided by the witnesses 
also be included in the record. Without objection, so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses be 
included in the hearing record, that all Members be permitted 
to revise and extend remarks. Without objection, so ordered.
    Our first panel as I stated earlier is composed of the 
Honorable Tracy A. Henke, Associate Deputy Attorney General, 
Office of Justice Programs, Department of Justice; the 
Honorable Catherine M. O'Neil, Associate Deputy Attorney 
General and Director of Organized Crime Drug Enforcement Task 
Forces, U.S. Department of Justice; and John Horton, Associate 
Deputy Director, State and Local Affairs, Office of National 
Drug Control Policy.
    For some reason, although we have a good crowd today and 
lots of people know about this hearing, you haven't drawn the 
same attention as the seven baseball players we subpoenaed 
yesterday. While you are famous, you are not quite Sammy Sosa 
and company yet.
    [Witnesses sworn.]
    Mr. Souder. Once again, thank you for coming and we will go 
to Mr. Henke first.

    STATEMENTS OF TRACY A. HENKE, ASSOCIATE DEPUTY ATTORNEY 
  GENERAL, OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF JUSTICE; 
  CATHERINE M. O'NEIL, ASSOCIATE DEPUTY ATTORNEY GENERAL AND 
DIRECTOR OF ORGANIZED CRIME DRUG ENFORCEMENT TASK FORCES, U.S. 
   DEPARTMENT OF JUSTICE; AND JOHN HORTON, ASSOCIATE DEPUTY 
  DIRECTOR, STATE AND LOCAL AFFAIRS, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

                  STATEMENT OF TRACY A. HENKE

    Ms. Henke. Thank you very much for the opportunity to be 
here.
    As you mentioned, I currently serve as the Deputy Associate 
Attorney General for the Department of Justice as well as the 
Acting Assistant Attorney General for the Office of Justice 
Programs. I am pleased to be here today to talk about the 
President's fiscal year 2006 drug control budget. I also want 
to thank you once again for the leadership that this committee 
has shown on these issues.
    The President's budget recognizes that the threat of 
illegal drugs and drug abuse is grave and affects not only the 
health and well being of our communities and our families but 
also our national security. The President's budget for the 
Department of Justice provides over $1\1/2\ billion in grant 
assistance to State and local governments. That includes $185 
million to strengthen communities through programs providing 
services such as drug treatment as Congressman Cummings pointed 
out, as well as $92\1/2\ million to support drug enforcement.
    From OJP's inception, substantial resources in programming 
to support States and local efforts to break the cycle of drug 
abuse and crime has occurred. We view our core mission to be 
that of providing Federal leadership and developing a Nation's 
capacity to prevent and control crime, administer justice and 
assist victims. Part of that leadership is promoting and 
supporting Federal, State and local cooperation to address 
these vital issues.
    The support that OJP and the COPS Officer provides for 
State and local law enforcement generally takes three forms. 
That is direct grant funding, training and technical assistance 
and development across jurisdictional resources. The budget 
request includes investments in three programs that are very 
well known to this committee: $70 million for the Drug Court 
Program; $44 million for the Residential Substance Abuse 
Program or what we call RSAP; as well as $20 million for the 
COPS Methamphetamine Program.
    We are finding that drug courts are an active tool in 
combating our war on drugs. Drug courts use the power of the 
court to integrate effective substance abuse treatment, 
mandatory drug testing, sanctions and incentives and 
transitional services for non-violent substance abusing 
offenders. As you may be aware, drug courts started at the 
grassroots level well before Federal funding was ever made 
available and today, over 1,500 drug courts exist in the 
country.
    RSAP is a critical aspect of offender reentry programs, 
helping insure that offenders come back to their communities 
substance free. For fiscal year 2006, we have requested $44 
million. The investment in RSAP pays off in several ways. It 
not only allows offenders to return to their communities 
substance free but also reduces incarceration costs for 
Federal, State and local governments and helps prevent further 
financial and emotional costs of drug related crimes on 
families, friends and communities.
    The COPS Methamphetamine Program has provided a unique mix 
of direct funding, training and technical assistance across the 
wide range of law enforcement activities. Since 1998, COPS has 
invested more than $330 million nationwide to combat the spread 
of methamphetamine and has developed a problem-solving guide to 
help law enforcement develop proactive prevention strategies 
and to improve the overall response to clandestine drug labs. 
The $20 million requested for fiscal year 2006 is intended to 
support State and local clandestine lab clean up efforts.
    In addition, the President's 2006 budget request includes 
other programs that relate to our Nation's capacity to combat 
illegal drug use and drug abuse. Those programs include the 
Southwest Border Prosecution Program, the Cannabis Eradication 
Discretionary Grant Program and the Prescription Drug 
Monitoring Program.
    As important as direct program funding may be, at the 
Department of Justice we believe that through training and 
technical assistance that we provide as well as the research 
and statistical information to inform criminal and juvenile 
justice practitioners and policymakers, the Department has an 
even greater impact on making America's communities safe for 
our citizens. Training and technical assistance are the key to 
a huge multiplier effect and expanding knowledge and practical 
operating capability to the field. They can also be the key to 
helping States and localities leverage or even save limited 
training dollars.
    As an example, in response to law enforcement demand, OJP's 
Bureau of Justice Assistance has more than tripled the number 
of free methamphetamine training courses offered nationwide. 
Individuals on the second panel here today have benefited from 
some of that training.
    In addition to direct funding, training and technical 
assistance, OJP supports State and local law enforcement 
through cross jurisdictional efforts that can best be 
accomplished through Federal capabilities. For example, the 
President's budget requests $45 million for the regional 
information sharing system which facilitates and encourages 
information sharing and supports more than 6,000 city, county, 
State, tribal and Federal member agencies. There are 16 HIDTA 
entities that also use the system.
    OJP's Community Capacity Development Office administers the 
Operation Weed and Seed Program for which we are requesting 
approximately $60 million. Weed and Seed is another cross-
juridictional strategy that aims to prevent control and reduce 
violent crime, drug abuse and gang activity in designated high 
crime neighborhoods across the country.
    Overall, while the budget request reflects reductions and 
elimination of some grant program that provide direct funding 
to State and local agencies, we believe the investments we are 
proposing represent a continued commitment to the success of 
State and local programming while mindful of our dual goals of 
public safety and economic prosperity.
    In closing, I want to emphasize the continued commitment of 
the administration, specifically the continued commitment to 
the Department of Justice, to our State and local partners, to 
complement their efforts to eliminate the scurge of illegal 
drugs and drug abuse.
    Thank you again for the opportunity. I look forward to your 
questions.
    [The prepared statement of Ms. Henke follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Now I will go to Ms. O'Neil.

                STATEMENT OF CATHERINE M. O'NEIL

    Ms. O'Neil. Thank you.
    I appreciate the opportunity to testify regarding the 
President's drug control budget and specifically the funding 
provided to the Organized Crime Drug Enforcement Task Forces. 
The OCDETF Program was created in 1982 to bring together 
Federal, State and local law enforcement to mount a 
comprehensive attack on a regional, national and even 
international scale against major drug trafficking 
organizations and the financial systems that support them.
    In March 2002, then Attorney General Ashcroft designated 
the OCDEFT Program as the centerpiece of the Justice 
Department's drug reduction strategy. Since then, the 
Department has focused the OCDETF Program and vastly improved 
its overall performance and accountability. OCDEFT has achieved 
great success convicting nearly 23,000 drug dealers since 2002. 
Most significantly, between 2002 and 2004, OCDETF participants 
dismantled 14 of the most wanted international drug 
organizations.
    A key to OCDETF's success has been its strong partnerships 
with State and local law enforcement. State and locals are 
participating in more than 90 percent of new OCDETF 
investigations and nearly 2,000 active cases overall. The 
participation by these officers takes a variety of forms. In 
some cases, a State and local officer may originate an 
investigation of a local drug trafficking group that through 
solid police work and cooperation with Federal counterparts 
expand beyond the original district to an investigation of a 
nationwide or even international drug supply organization.
    In other cases, State and local officers provide invaluable 
investigative assistance to an ongoing OCDETF case by 
monitoring Federal wire taps, conducting surveillance or taking 
specific enforcement actions within their local jurisdictions 
that enable the Federal investigation to continue undisclosed.
    Although OCDETF's appropriated funding is used only to 
reimburse Federal participants, State and local departments 
involved with OCDETF can obtain overtime funding. In fiscal 
year 2004, for example, OCDETF disbursed about $7 million in 
overtime funds to thousands of State and local officers across 
the country. Additionally, OCDETF shares significant seized 
assets with our partners. In fiscal year 2004, OCDETF 
particpants deposited more than $126 million into the Assets 
Forfeiture Fund and nearly 40 percent of these deposits or 
$49.9 million were shared with State and local departments. As 
OCDETF continues to increase the overall quality of its 
investigations and particularly its financial investigations, 
we expect to seize and ultimately share even more.
    When discussing State and local participation in OCDETF, we 
cannot ignore the strong support we have received from the 
HIDTA Program. In a growing number of cases, HIDTA and OCDETF 
are working together to impact the drug trade. As you are 
aware, the President's budget proposes to transfer the HIDTA 
Program from ONDCP to the Department of Justice with funding 
through OCDETF. There seems to be confusion about what this 
move will mean for HIDTA, so let me make one point very clear. 
Under the President's proposal, the HIDTA Program will not be 
merged with the OCDETF Program. OCDETF will use its executive 
office to administer HIDTA's funding but the programs 
themselves will remain separate and will pursue individual 
missions as they do currently.
    Both HIDTA and OCDETF will play important roles in the 
overall drug enforcement effort. The Department welcomes this 
proposal as a further opportunity to pursue a comprehensive 
drug strategy that most effectively attacks organizations at 
all levels and eliminates the various criminal activities and 
violence associated with drug crime.
    The fight against illegal drugs must be fought 
strategically on many fronts, interationally, nationally, 
regionally, and locally. Both HIDTA and OCDETF must utilize 
their limited resources in a manner that is complementary and 
that best achieves our overall goals. Placing the HIDTA in the 
Department of Justice will enable us to more effectively define 
our drug strategy, to establish clear priorities for our key 
programs and to allocate our drug enforcement resources.
    OCDETF is well suited to administer the HIDTA Program as it 
too is an independent, multi-agency, multi-jurisdictional 
enforcement program dedicated to promoting cooperation and 
coordination among drug enforcement personnel. No single 
investigative agency is more important than another and we 
strive to ensure that we are effectively leveraging the 
expertise and manpower of every entity that participates.
    While the President's budget reduces HIDTA funding to $100 
million, the Department is committed to making HIDTA operate 
productively, particularly by emphasizing those elements of the 
program including coordination and intelligence sharing that 
have worked so well over the years.
    Before closing, I simply want to note that the other 
elements of OCDETF's budget, the funding for the Fusion Center, 
for new prosecutors and new marshals and funding for the FBI, 
all will enhance the program's overall ability to dismantle 
major drug trafficking and will allow OCDETF to continue to 
work closely with State and local departments and to share the 
proceeds of our success. OCDETF was born in an America that was 
under attack from organized drug trafficking and to respond to 
that threat, we adopted a strategy of cooperation among law 
enforcement at all levels, Federal, State and local.
    The proud tradition of cooperative law enforcement remains 
just as vibrant today as it was more than 20 years ago. Today 
our efforts remain just as critical to our Nation's security 
and our future. We will continue the fight against illegal 
drugs, we will fight harder and we will fight smarter and we 
will win.
    I appreciate your support for this program and for our 
overall drug enforcement efforts.
    [The prepared statement of Ms. O'Neil follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Thank you.
    Mr. Horton.

                    STATEMENT OF JOHN HORTON

    Mr. Horton. Thank you for the invitation to testify before 
you today regarding the President's 2006 Drug Control Budget. I 
have submitted written testimony and would ask that it be made 
a part of the record.
    I recognize that you have already heard from ONDCP Director 
John Walters regarding the overall drug control budget, so I 
will keep my verbal testimony brief. I will also try to keep it 
focused on aspects of the budget which specifically pertain to 
drug enforcement programs.
    Broadly, the President's proposal increases the drug 
control budget by nearly $270 million or 2.2 percent over this 
fiscal year. The budget incorporates the programs and 
principles needed to continue the success the administration 
has seen over the last 3 years, a 17 percent reduction in youth 
drug use in America.
    The drug control budget increases support for domestic drug 
enforcement by 2.1 percent or nearly $70 million. Dividing the 
drug control budget into five policy categories, prevention, 
treatment, domestic enforcement, international and 
interdiction, domestic enforcement occupies the largest 
individual slice of that pie at 27 percent. This is the Federal 
budget and so it should come as no surprise that our drug 
enforcement support is primarily Federal in nature.
    I am joined today by colleagues from the Department of 
Justice and between the three of us, I hope we can answer 
questions the committee may have about specific programs. I 
recognize that one of the programs of interest is the HIDTA 
Program, so before concluding my verbal testimony, I would like 
to take a few moments to explain the rationale behind the 
administration's proposal regarding HIDTA.
    The President's budget proposes two things regarding HIDTA. 
First is to move it from its current location at the Office of 
National Drug Control Policy to the Department of Justice and 
second to fund the program at $100 milliion. With respect to 
the location of the HIDTA Program, the administration thinks 
that the best place for drug enforcement programs like HIDTA is 
at the Department of Justice. That is one of the reasons that 
the Department of Justice exists, to oversee and to coordinate 
our national law enforcement efforts.
    The HIDTA Program is an important part of those efforts. In 
order for the program to be the best it can be at important 
functions like intelligence sharing and fostering multi-agency 
and multi-jurisdictional coordination, it is important for the 
program to be at the Department of Justrice itself. It is also 
important that the program retain its focus on State and local 
law enforcement and ONCDP will work with the Department of 
Justice and with Congress to ensure that this focus is 
maintained and that the transition is smooth.
    With respect to the funding level for HIDTA, I would note 
first what we think is the most important fact, that the HIDTA 
Program is important and that is why it was not proposed for 
elimination. Broadly, I know that Congress is aware of the 
President's commitment to fiscal responsibility and to 
sustaining the economic expansion by exercising fiscal 
restraint. As a matter of general principle, the administration 
is trying to be as efficient with the money of the taxpayers as 
we can be expected and I think that you and Congress do as 
well.
    The level of funding proposed for the HIDTA Program 
combined with its placement at the Department of Justice will 
enable the program to maintain a strong focus on supporting 
State and local agencies. Additionally, I would note the 
administration has rightly made program performance central to 
budget decisionmaking and the Office of Management and Budget 
has concluded that the PARTS score, the program assessment 
rating tool used by OMB, of the HIDTA Program suggests that the 
program has not demonstrated results.
    With that said about HIDTA, I think it is important to look 
at the President's drug control budget as a whole. It increases 
support for domestic drug enforcement. It increases the drug 
control budget as a whole in a fiscally responsible manner. I 
recognize that some of the specific provisions in the budget 
will be the subject of a healthy debate as they should be. 
While the American people deserve a rigorous and vigorous 
discussion of the right funding priorities, they also deserve 
to have their money spent on the programs that will provide the 
best results.
    The ultimate test of success is continued reductions in 
especially youth drug use and this budget is the reight way to 
continue the successes of the past 3 years.
    Thank you and I look forward to answering any questions you 
may have.
    [The prepared statement of Mr. Horton follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Thank you all for your testimony.
    I am very frustrated with the testimony and let me say 
first off, if I can give as big an insult in my vocabulary as I 
can, this is the closest I have heard to early Bill Clinton, 
that from a Republican administration I find it appalling that 
what we faced when we came in 1994 was a drug czar's office 
that had been basically gutted. Today, again, we hear the drug 
czar more or less saying go ahead and gut my office. There is a 
substantial proposed reduction in staff but you have most of 
your staff, unlike what happened in the first 2 years under Lee 
Brown, from 125 down to 25, but they are taking almost all your 
programs out and you are publicly praising that, and you are 
going to be left, as all hat and no cowboy because you will 
have your staff there but your HIDTA Program is gone for the 
most part, it is transferred; your CTAC Program is dramatically 
reduced. Quite frankly, this was about all we had in the early 
days of the administration when President Bush first wanted to 
downgrade the drug czar to a non-Cabinet level position which 
comes the question of who cares whether in one sense whether 
you have an Office of ONDCP with the Drug Czar or whether it is 
under the Attorney General and the Attorney General becomes the 
Drug Czar.
    Why did Congress do that? I say it doesn't matter who the 
Attorney General is at a particular time and I certainly have 
nothing against the Office of Justice Assistance. The sister of 
our Governor of Indiana was head of that. Terry Donohue from my 
hometown has been a key player there. My hometown does pretty 
well with Justice assistance, and I have seen many effective 
programs. Karen Tandy who now heads DEA headed OCDETF and has 
done many great things to bust up organized crime.
    I can't say this more clearly. The reason we created the 
Office of National Drug Control Policy and set up these things 
is the Attorney General's office and the Department of Justice 
are fair weather friends to the drug battle because you have 
multiple crime battles to fight in the United States that 
whatever fad Congress decides, if this thing or that thing or 
all the variations of organized crime, your primary mission 
never will be drugs. It will always be a key part of your 
mission because you can't separate law enforcement from 
narcotics but it will never be the primary mission.
    You have some agencies like DEA but that is why Congress 
wanted to have and created an oversight office and why Congress 
is likely to defend that and to come in with the type of 
testimony that basically sticks your finger in the eye of 
Congress and the historic tradition of why we did this without 
any consultation. I talked to each of the appropriators and 
each of the authorizers, and there was no consultation with any 
committee about whether you should come in an appropriations 
process and try to jam every authorizing committee and jam the 
Appropriations Committee with this approach. It is extremely 
disappointing.
    Furthermore, there was no reference to Byrne grants other 
than in the front page of your testimony where our hearing 
title includes Byrne grants. There was no reference to the 
elimination of Byrne grants which are critical to drug task 
forces and have been over the years. Multiple times the 
administration has proposed getting rid of them and Congress 
puts them back in.
    Before I get into a couple of the questions, I also wanted 
to say that we hear training, training, and training and I have 
all kinds of people trained on meth. What they don't have is a 
lab to clean up the mess. We have trained a bunch of people and 
they sit out there for 4 to 8 hours waiting for somebody to 
show up with the meth lab.
    The argument that we need to transfer more money to 
training just isn't going to fly here. What we need are more 
labs and different methods of how to do it.
    I have a series of questions I want to make sure I start 
with specifically. I have listened and these are mostly for Ms. 
Henke and Ms. O'Neil. Maybe I will start with Ms. O'Neil and 
Mr. Horton on this.
    As I understood your testimony, Ms. O'Neil, the HIDTAs 
wouldn't be eliminated but their budgets are being cut 60 
percent. Are you saying that under this program, no HIDTAs will 
be eliminated, some HIDTAs will be eliminated, all HIDTAs will 
be wiped out including the 60 percent production on the 
southwest border, 60 percent in Texas, 60 percent in California 
or are you proposing to eliminate Iowa? What is the thought of 
this?
    Ms. O'Neil. I don't believe I said no HIDTAs would be 
eliminated. My testimony was that the HIDTA Program would not 
be merged into OCDETF, that it is not our goal to turn the 
HIDTA Program into the OCDETF Program. We recognize that HIDTA 
and OCDETF very clearly have distinct missions and need to 
continue with an overall strategic vision to have each have 
focused missions. That is what we hope this will accomplish.
    Mr. Souder. In my question, did you say all of them would 
be reduced 60 percent or are you going to cut out some HIDTAs?
    Ms. O'Neil. The President's budget would provide $100 
million in overall funding and it will be incumbent upon the 
Department of Justice and ONDCP and quite frankly the HIDTA 
community to work jointly to figure out how that $100 million 
can be administered and spread most effectively with the HIDTA 
Program and with the HIDTAs working most effectively.
    Mr. Souder. What methodology would you use to determine 
which HIDTAs you are either cutting by 60 percent, 100 percent, 
80 percent or eliminating?
    Ms. O'Neil. At this time, we have not established any sort 
of firm methodology. I would say we obviously would be looking 
for HIDTAs that are supporting the overall goals of the 
National Drug Control Strategy, the goals of the Department's 
drug strategy and HIDTA programs working effectively.
    Mr. Souder. Which three HIDTAs do you think aren't working 
effectively and would be an example because if you came up here 
proposing to cut out 60 percent of the funding and you don't 
even have three examples of something that isn't working, you 
have a fundamental problem. You are asking Congress to change 
our budget, you are telling me you don't have the methodology 
of how you are going to reduce it, you don't know whether they 
are going to be eliminated or partly eliminated and if you 
can't even name three that you think are a problem, we have a 
problem here. You are asking us from blindness to wipe out a 
program that is working. Do you have three you think aren't?
    Ms. O'Neil. I do not have three HIDTAs that I would 
identify at this time.
    Mr. Souder. Do you have one?
    Ms. O'Neil. Again, what we want to do is get our arms 
around the HIDTA Program to make sure we understand exactly 
where the funding is, how it is being spent, what is working 
well, what might not be working so well and make decisions that 
will make sure the HIDTAs achieve the overall goals they are 
meant to achieve.
    Mr. Souder. Wouldn't it make sense to do that before you 
propose eliminating them? I don't even understand as a budget 
management person, a person with a MBA degree and who worked in 
the private sector, you just said you want to get your arms 
around it and figure out which ones are working and how to do 
it but you have already decided that you want to cut the funds 
60 percent and maybe eliminate some. On what basis?
    Ms. O'Neil. The President's budget proposes the $100 
million and it would be my understanding that the manner in 
which the $100 million was arrived at would be pre-decisional 
and I would not be at liberty to answer that.
    Mr. Souder. How did they come up with the $100 million?
    Ms. O'Neil. That question may be best turned to my friends 
at ONDCP. Again, that would be a pre-decisional budget decision 
that I would not be at liberty to share.
    Mr. Souder. Mr. Horton, did you make the recommendation of 
$100 million and go to OMB or did OMB come to you and say it is 
$100 million?
    Mr. Horton. I frankly do not know the answer to that. If 
you are asking if I personally did it, the answer is no, but I 
believe it was pre-decisional and resulted from discussions. I 
don't know who initiated it.
    Mr. Souder. You are Deputy Director for Local Affairs. Do 
you work with the HIDTA Program directly?
    Mr. Horton. I am Associate Deputy Director. I do work with 
the HIDTA Program.
    Mr. Souder. Did they ask for your input and did you agree 
that they should be reduced?
    Mr. Horton. Unfortunately, I think that is pre-decisional 
and I probably can't answer. I am sorry.
    Mr. Souder. Would OCDETF retain the current operating 
guidelines of HIDTA? For example, would you have an executive 
board made up equally, Ms. O'Neil, of State and local and 
Federal?
    Ms. O'Neil. Certainly we want to look at the way the HIDTA 
Program is structured and determine how well those executive 
boards are working and whether they should be maintained. I 
think there has been some sense that by coming over to the 
OCDETF Program or being administered by OCDETF we would have a 
natural inclination to impose the existing OCDETF management 
structure onto the HIDTAs. OCDETF and HIDTA were created to do 
different things. Our regional task forces reflect the mission 
and the direction that the OCDETF Program was meant to have. 
Our intention would be to maintain a strong partnership with 
State and local law enforcement and to structure the HIDTA 
Program in a way that furthers its mission and makes sense from 
a management standpoint.
    Mr. Souder. You are arguing we should change the program 
butyou haven't decided whether you are going to include State 
and local balance as it currently is? That is something you 
would determine after we have already eliminated it?
    Ms. O'Neil. We would absolutely include State and locals. 
The focus of the HIDTA Program has always been a partnership 
with State and local law enforcement.
    Mr. Souder. You would have an equal balance between the 
two? That is the fundamental philosophy of creating the HIDTA, 
so if you want to change and come to Congress and say we want 
to change, you need to be able to answer the question, are you 
proposing changing the fundamental nature of this program where 
it is 50-50, State and local and Federal or not. If you don't 
know the answer to that question, why are you proposing a 
change?
    It is one thing to say we want some research money to look 
into how to do this, we want to propose a reauthorization bill 
to figure out how to do this but you have a funding bill. By 
the way, did ONCDP go to OMB and say we would like this 
program, take it away from the Drug Czar's office?
    Ms. O'Neil. Again, I would have to agree that would be pre-
decisional. I personally did not go to OMB.
    Mr. Souder. Do you know whether OCDETF, Department of 
Justice or the Drug Czar's office surveyed local law 
enforcement people to see what they thought about this change?
    Ms. O'Neil. I am not aware whether or not ONDCP or others 
did. I personally did not conduct a survey.
    Mr. Souder. Have you seen anything in your departments that 
would suggest any kind of surveying of State and local law 
enforcement to ask them whether they would continue to 
participate, whether they think it would be better off moved 
over or was this a unilateral budget decision made without 
consultation at the State and local level?
    Ms. O'Neil. There is certainly nothing that has come across 
my desk but that does not mean one way or another whether such 
sorts of surveys or studies exist. I certainly know from 
communications with HIDTA directors that there has been some 
sense that they were not consulted.
    Mr. Souder. Thank you. Mr. Horton, do you have any insight 
into that? Did your office survey? Let me say as chairman of 
the subcommittee, I certainly haven't heard anywhere in the 
country that HIDTAs, Byrne Grant, drug task forces or local law 
enforcement have been consulted. If it was done, it was very 
quiet. Do you know if there was any surveying done of State and 
local law enforcement before you proposed a huge change in the 
whole drug enforcement program?
    Mr. Horton. I do know the answer, Mr. Chairman, and the 
answer is that we did not consult the State and local law 
enforcement about the specific inclusion in the fiscal year 
2006 budget on shifting the HIDTA Program from ONDCP to DOJ. To 
the best of my knowledge, we did not.
    Mr. Souder. Thank you for your openness.
    Mr. Cummings.
    Mr. Cummings. I have to tell you this is very upsetting but 
I want to take this in another direction.
    Methamphetamine in Baltimore is not a major problem in 
Baltimore, but it is a major problem in this country. There is 
no 1 day that goes by that I walk on the floor of the House 
that some one of my colleagues, Republicans and Democrats, tell 
me about a methamphetamine problem in their district. I just 
want to know what went into the thinking about the whole meth 
program. Can you tell me about that? Who wants to talk about 
that?
    Ms. Henke. The COPS Program, the President's budget is 
consistent with the prior fiscal year budget that he submitted 
for $20 million. Congress did appropriate over $50 million. The 
President did request $20 million and those additional 
resources Congress appropriated all were earmarked. The 
President's budget remains consistent on that $20 million 
request.
    Mr. Cummings. You realize the methamphetamine problem is 
getting worse in this country?
    Ms. Henke. That is why we are working on several programs 
including the Drug Court Program, the RSAP Program and so forth 
to try to do what we can to address those issues. I know the 
chairman referenced the issue of training but we are providing 
some specific training and tools to law enforcement on that.
    Mr. Cummings. What about money? I have gotten so interested 
in this because I represent a city and I have had people from 
rural areas, law enforcement, men and women on the front lines 
and they are so frustrated because they tell us they have 
limited resources, they have to clean up these labs, they go 
out with the limited resources they have, tie up somebody 
sometimes for 8 to 14 hours in a small force. I am trying to 
figure out what we are doing for them.
    The reason I am raising this is I don't know what we will 
hear from the next panel but I can tell you one thing. If I 
were on the next panel, I would be very, very, very upset. The 
reason why I would be upset is because what I said from the 
beginning, these are the people on the front line. It is nice 
to hear folk making these decisions but they tell me they worry 
that the public will get the impression they can just mosey 
into their jurisdictions because they don't have the manpower 
and they don't have the resources they need and these folks get 
these drug dealers and drug manufacturers who believe they can 
set up shop almost anywhere.
    You know this is on C-Span right now and there are drug 
folks sitting right now watching this. They are bright people 
and they are listening to all of this and are probably saying 
to themselves, my, my, my we are in pretty good shape. They are 
making decisions, they don't talk to each other. Boy, this is 
great. Let us see where we are going next because we are not so 
worried about getting caught.
    When I hear that these decisions are being made without our 
local and State input, I have to tell you it is very, very 
upsetting. It is upsetting for another reason and it just seems 
logic would tell us when you are dealing with Members of 
Congress and dealing with things like HIDTA and methamphetamine 
and these programs, every single Member of Congress is going to 
go beserk on this. It doesn't even make sense.
    I am saying that not long ago around early February, in 
Indiana, a little girl was killed, she was 10 years old and her 
last name was Coleman. She was killed because she witnessed 
some kind of methamphetamine transaction. Then I will take you 
to Baltimore. We have a major drug problem that our 
Commissioner will tell you we are fighting with everything we 
have. Still, you come here and tell us about all these cuts and 
how you have sliced and diced but the very people who have to 
face this front line aren't even in the mix.
    We do have a program called HIDTA nad I would like you to 
tell me specifically what is wrong with HIDTA, be very 
specific, so I can know since we have to make these decisions. 
I want to know why HIDTA has to have its money managed, is it 
something wrong with theway they are managing their money and I 
want to know what we expect to happen that is going to make 
them more effective and efficient? Help me.
    Ms. O'Neil. I would certainly speak to the management issue 
of the money. I think the very simple answer to that is someone 
has to manage the money. Currently ONDCP administers the grant 
funding and now when it comes over to the Department of 
Justice, there needs to be an entity at the Department of 
Justice who will serve the same role. I think OCDETF was chosen 
to serve that role because OCDETF like HIDTA is a Federal, 
State and local law enforcement partnership. It is not the DEA 
or the FBI or any other single Federal enforcement agency, but 
rather a program dedicated to coordinating law enforcement 
entities at all levels.
    Mr. Cummings. Can you hold it right there because you are a 
bit ahead of me. Was part of the reason there was something 
wrong with the way ONDCP was administering the funds that 
caused us to move to this situation? Mr. Horton.
    Mr. Horton. I think the important point to know is there 
are some things that are very right with HIDTA. In fact, if you 
look at the drug control budget, it says the HIDTA Program has 
been effective.
    Mr. Cummings. This is Mr. Horton's testimony. It says the 
administration has made program performance central to the 
budget and part of it says HIDTA has not been able to 
demonstrate results. You are talking about 2004-2005. Did I 
miss something?
    Mr. Horton. If I could explain, there are things the HIDTA 
Program has done that are effective. It has encouraged 
cooperation between the Federal, State and local agencies and 
the PARTS, the Program Assessment Rating Tool, didn't say it 
was ineffective. That was not the finding.
    Mr. Cummings. Let me ask you this because I think we are 
dancing around words here. You have HIDTA people sitting here 
and they are going to testify in a few minutes. I don't know 
what they will say but I want to know, has the HIDTA Program 
overall demonstrated results. If it hasn't, we need to know 
that and if it hasn't, I would like to know why. Why do you all 
think it hasn't demonstrated results so we can talk to the 
HIDTA people and say we want some accountability. Since we have 
so many of them here in the room, it seems like a good time to 
me for us to share information.
    Mr. Horton. We clearly think there are some things very 
right about the HIDTA Program, that is why it wasn't 
eliminated. We are funding it at $100 million. I recognize that 
is a cut but again, it is being funded at $100 million.
    Mr. Cummings. I have to tell you I heard Ms. O'Neil say the 
same thing you just said,t hat we are not eliminating it but in 
other words you are saying, be happy, we are not eliminating 
it. We are only going to cut 60 percent of it, be happy. Be 
happy because it is going to be better because OCDETF is going 
to administer the funds now. We don't know how we are going to 
make this adjustment and still be effective and efficient, a 60 
percent cut is a serious cut.
    I guess what bothers me is I really wonder what is going 
through the heads of the HIDTA people sitting behind you. I 
wonder what is going through the heads of all those men and 
women who every day go out there work with HIDTA, try to make a 
difference, putting their lives on the line, leaving their 
families not knowing whether they will come back because they 
are dealing with some criminals who think life isn't worth a 
damned and yet when it comes to them, would you say they are 
doing a good job?
    Mr. Horton. I think there are a tremendous number of HIDTA 
directors and law enforcement who do a wonderful job in this 
country. I know that.
    Mr. Cummings. Are they good enough to be consulted. These 
are highly professional people who know their job, many who 
have been doing this for many years, many severely underpaid, 
many have to pump up their personnel and keep them going and 
have to go back to their offices today or tomorrow and talk to 
their people and keep their troops in line and keep their moral 
up after their troops have listened to this that basically 
says, well, guys, too bad, we are going to make these changes 
but you are great guys on the front line and you are 
professionals but, a decision has been made that 60 percent of 
your budget is going, we don't know what is going to happen to 
you next. By the way, the criminal element has been watching C-
Span.
    Mr. Horton. First, I want to mention I come from a law 
enforcement family. I am a former prosecutor and I have uncles 
who are police and I know the sacrifice they make very well. 
When we come up with the budget every year that we submit to 
Congress, when we say it is pre-decisional, I think there are 
very few if any parts of that allowed to go outside of the 
administration.
    I recognize it would be disingenuous for me to state 
otherwise, that law enforcement of course would have preferred 
we come to them but that is not the way the budget process 
works is the honest answer. The other thing I would note is 
that HIDTA budgets do not account for all of any, whether the 
Indiana or Baltimore police that are meant to support those 
efforts. I hope law enforcement understands, this is not 
personal. It is a tough budget environment this year and we 
have had to come up with a national drug control strategy that 
we think is best not one that focuses only on drug enforcement 
but incorporates prevention, treatment, international 
interdiction. We think this budget is the right way to 
accomplish that.
    Mr. Souder. Predecisional budgets that don't include people 
don't pass. That has been one of the problems with the Byrne 
grant proposals. If you don't consult anybody, your budgets 
don't pass. To say it is predecisional what is going to be 
inside the room and we are just going to do this inside OMB and 
maybe tell the agencies it isn't going to work. And it is going 
to become abundantly clear again if I have to vote against the 
budget and it doesn't take very many Republicans to do a wake 
up call here that an arrogant approach that says everything is 
predecisional, we are not even going to talk to all these 
people out in the country, we are not going to present any 
evidence to Congress and Mr. Cummings asked multiple times and 
I tried to ask the question, you are proposing to transfer it 
from ONDCP to OCDETF. What did ONDCP do wrong to cause the 
transfer? You have not given any compelling evidence to suggest 
why it should be moved over or what the punishment is. Why do 
you think the Attorney General's office can do it better than 
ONDCP?
    Mr. Horton. I don't mean to imply and I don't think anybody 
at this table means to imply that ONDCP has done anything 
wrong. I certainly hope that is not the case being part of 
ONDCP myself. As I indicated in my testimony, we think law 
enforcement programs, drug enforcement programs like the HIDTA 
program should be in the part of the Federal Government that 
has the primary responsibility for law enforcement and drug 
enforcement.
    Mr. Souder. Does that include the Department of Homeland 
Security which has more drug enforcement people than any of 
you?
    Mr. Horton. No, I am talking in this particular case.
    Mr. Souder. Why this particular case and not all cases?
    Mr. Horton. As you know, the primary drug enforcement 
agency of the Federal Government is the DEA.
    Mr. Souder. I would argue that the Border Patrol, Customs 
and Coast Guard units inside while they have a mission of 
homeland security, have as many agents doing drug enforcement 
things, making as many joint arrests as what is in the Justice 
Department, and the HIDTAs and local law enforcement do 90 
percent of the arrests. That is not a factual answer. Justice 
has more individual programs but you did answer the question. 
Your argument is ONDCP didn't do anything wrong, you are moving 
it over to the Justice Department to try to consolidate drug 
programs in the Justice Department. Is that basically the 
testimony?
    Mr. Horton. I am not sure I would use the word consolidate. 
As the Associate Deputy Attorney General indicated, OCDETF and 
HIDTA will be distinct programs but we do think it is 
appropriately placed there.
    Mr. Souder. You said that you believe some HIDTAs are doing 
well. Can you name some that aren't doing well?
    Mr. Horton. I don't have specific HIDTAs that I would name 
right now.
    Mr. Souder. But you want us to cut the budget and you don't 
have a single example? I don't understand this. How can you 
propose cutting the budget and none of you have an example? Mr. 
Cummings asked this question too. If you have measurements and 
say you have evidence that suggests the program needs to be 
redone or even offer testimony that says it can be done better, 
on what basis and which ones aren't?
    Furthermore, when we talk about State and local, in New 
York which arguably is the most integrated HIDTA where they 
have also integrated DEA and Department of Homeland Security 
and are doing all these things together, are you proposing to 
cut them 60 percent too? Do you propose to cut the New York 
City HIDTA 60 percent or will they be funded because if you 
don't cut them 60 percent, by definition since it is one of the 
biggest HIDTAs, you are really going to whack everyone else.
    Yet everybody thinks it is an amazing unit, why would you 
touch it? If you say you are not going to touch it and hold it 
harmless, your budget numbers don't work. You have a flaw here 
in the basic proposal.
    Mr. Horton. The drug control budget does not specifically 
propose to cut the New York HIDTA, what is going on in New 
York. Very clearly there are some decisions that will have to 
be made. ONDCP and the Department of Justice are going to have 
to come up with a more specific plan. We knew that, and we will 
be sharing that with you.
    Mr. Souder. So you are asking Mr. Cummings, who may not 
vote for the budget anyway, and Ms. Watson who may not vote for 
the budget anyway, to say vote blind, trust us that Washington-
Baltimore HIDTA and Los Angeles HIDTA aren't going to be 
eliminated. I don't have a HIDTA. I am making this argument on 
principle, not on the Ft. Wayne HIDTA. I have a Byrne grant, we 
don't have a drug task force. On HIDTAs, you want them 
theoretically to vote for a budget and say trust us as to 
whether we put all the money in New York or Iowa or down in 
Texas, vote blind?
    Mr. Horton. We are asking that you vote for the President's 
budget, not based purely on that factor but because we think 
this is the overall strategy incorporating all those five 
functional units that will accomplish continued reductions in 
drug use in America.
    Mr. Souder. Ms. Watson.
    Ms. Watson. I am just now coming into the meeting but I 
understand there have been some charges of corruption and if 
you have explained then let me know. I don't want you to have 
to repeat responses.
    Are you aware of cases of corruption and abuse involving 
Byrne funds and do you believe these are widespread problems? I 
get the sense you are asking to defund some of these programs?
    Mr. Horton. That is correct. As to the corruption question, 
I am not aware of anything like that in my office or in the 
HIDTA Program. I am aware you asked about Byrne and perhaps I 
should defer to the Assistant Attorney General.
    Ms. Henke. Congreswoman, over the years there have been 
several IG investigations and GAO investigations into COPS 
programs, into Byrne programs where abuse and misuse has been 
found. Is it widespread? No, we don't necessarily think it is 
widespread but we do know there are problems out there.
    Ms. Watson. When you find those problems, what can be done 
about them, those specific ones since it is not widespread?
    Ms. Henke. It depends on the specific situation that is 
found, whether or not it resulted in involvement from the FBI 
or the U.S. Attorneys Office or whether or not it is just a 
small violation of program rules or responsibilities that has 
been identified by the Inspector General or the GAO or others. 
Sometimes it means asking for funds back, sometimes it means 
freezing funds for that specific entity until the problem is 
resolved, so there is a variety of actions we can and do take.
    Ms. Watson. Bring me up to date, are you recommending, Mr. 
Horton, that we eliminate some of these programs or we cut 
funds?
    Mr. Horton. There are some recommendations throughout the 
drug control budget to cut or eliminate some programs. We most 
recently discussed the cut of the HIDTA Program.
    Ms. Watson. I represent a very critical part of Los 
Angeles. I represent what they used to call South Central Los 
Angeles or South Los Angeles, now. We suffer from a rash of 
gangs and violence with guns, and a lack of police.
    We have tried several tax enhancements to hire more police, 
and they have not succeeded. If there is any program that we 
need funding or need more of, it certainly is the COPS program, 
HIDTA programs, and anything that will help us as we deal with 
youth on the street.
    I am wondering why, with proposals that are going to be in 
front of us, that we are looking at these very critical 
programs for cuts. Can you explain to me why this is occurring?
    Mr. Horton. Certainly, I would be happy to speak, 
especially to the HIDTA program itself. Then on some of the 
other program that fall under the jurisdiction from my 
colleagues from the Department of Justice, I may defer to them.
    But as I indicated earlier, I think that first, we all know 
that this is a tight fiscal environment. That is an over-
arching feature, I think. I indicated earlier that OMB has 
found that the HIDTA has not demonstrated results. That is 
under PART, its Program Assessment Rating Tool. That is not to 
say that it was found ineffective. It was found that it had not 
demonstrated results.
    In the President's direct control budget, it also notes 
that by moving the HIDTA program over to the Department of 
Justice, that is where many of our drug enforcement efforts are 
housed, such as DEA, OCDETF, the Organized Crime Drug 
Enforcement Task Force. We think that having those programs be 
able to work from the same section of the Federal Government 
will be more efficient and help accomplish our drug control 
objectives better.
    Ms. Watson. Let me just say this. I do not think so. We are 
3,000 miles away. There is not even communication between 
Washington and California. I found that out by trying to get 
rid of a gun and arms shop, ATF, that has been operating for 15 
years illegally.
    I go to the ATF Federal level, and then I have the regional 
in my district office, and I said, did you know they are 
getting ready to renew the license for this guy who has been 
there illegally, and he has not complied with the local 
ordinances? No, they do not talk to each other.
    So there is no way you can convince me that you can run it 
from Washington, DC, when ATF cannot oversee and run the 
program out in Los Angeles.
    Now when there was testimony before Congress in support of 
the HIDTA program, the Chief of the California Bureau of 
Narcotics Enforcement testified and said, an essential 
component of HIDTA is the flexibility and the ability for 
unique law enforcement problems to be addressed. The benefit of 
flexibility of the local Board to decide what threat is 
pertinent to their region is absolutely essential to righting 
the drug problem in a particular area.
    I can testify to that. You cannot tell me that you can run 
it from Washington, and believe me, we have a horrendous 
problem, as you know, in the Los Angeles area, right in my own 
district. So they are testifying to the effects of a program 
that gives them the flexibility to be innovative and creative.
    Believe me, the gangs on the street, they far out-pace law 
enforcement being creative. You know, they have got a better 
communication system and they change their language every day, 
and they get away. They sell on those streets, guns, you know.
    So I am just saying that I do not know what your data is. 
But I can tell you, from what my people say in the region, this 
is a program that they cannot do without.
    Mr. Horton. Thank you for those comments. I want to correct 
a mis-impression that I may have inadvertently made. We are not 
proposing that we would be taking all the HIDTA activity back 
up to Washington, DC. I do not forecast that fact.
    I fully expect that the HIDTA program is going to retain 
and maintain its focus on supporting State and locals. The 
Department of Justice and ONDCP and my office have talked about 
that, and I will defer to the Associate Attorney General for 
the remainder of this answer, since the program is proposed to 
go to her. But I know that we agree that it would retain its 
ability to respond flexibly to State and local problems as you 
described.
    Ms. O'Neil. Congresswoman, I would reiterate that comment. 
Certainly, as I mentioned earlier before you had come in, the 
program needs to be run from somewhere, and they have 
determined that within the Department of Justice, the 
appropriate place to do that would be from the OCDETF program.
    I might share with you that while OCDETF does not have 
certainly quite the same structure that the HIDTA program has 
from a management standpoint, simply because it is designed to 
do something different from HIDTA, we, too, run our program out 
in the field.
    Our structure is comprised of district coordination groups 
that are made up of the representatives of all of our Federal 
law enforcement agencies, as well as, under our guidelines, a 
State and local representatives on every one of those district 
coordination committees.
    At the regional level, we have all of our agencies 
represented again. In fact, we have State and local law 
representatives on two of those regional committees. We have 
HIDTA Directors on three of those regional committees. Even the 
OCDETF program, which has a more regional, national, and 
international focus, recognizes that strategies have to be 
developed out in the field.
    We have our OCDETF regions submit to us regional strategies 
that will work for the Southwest and the Great Lakes and the 
Southeast, so that we can even adjust the OCDETF program to 
adapt to the way that we must attack the drug trade, and the 
differences that the drug trade has in different parts of the 
country.
    So I completely agree with you, and that certainly would be 
an important part of what we would intend to continue to do.
    Ms. Watson. For my own edification and clarification, you 
are saying we are just going to pick up and house this program 
over here? It still will depend on local cooperation and 
collaboration and the locals suggesting strategies. Is that 
correct?
    Mr. Souder. May I intervene, because we covered this a 
little?
    Ms. Watson. Yes, please do, I need to be clear.
    Mr. Souder. Let me ask this again. You suggested that part 
of the reason it is moving over to the Justice Department, was 
that they, and it was interesting that you said ``they'' rather 
than ``you'' at OCDETF, decided that it should be in OCDETF was 
because of your structure.
    Now I had asked you earlier, the way HIDTAs were 
structured, it was half local and half Federal. Are you going 
to have half local? The way you just described your Task 
Forces, is local invited to be part of the committee, but they 
do not have the same leverage that they do in a HIDTA?
    The whole concept of a HIDTA was to give equal voting 
power, because most of the dollars come in from a local watch, 
and we use our Federal dollars as leverage. Ms. Watson, when 
she was asking her question, hit a core point. The fundamental 
belief, I believe, behind this ideologically, which we have 
fenced with on this committee, is a feeling that the HIDTAs 
have become too oriented toward local and regional, and not 
national enough.
    One way to do that, and to change that and nationalize and 
give less power to the people in Los Angeles is to move it to 
an OCDETF-type structure, rather than a HIDTA structure. Thus 
far, you have been unwilling to say, even though you are asking 
us to move the funds, that you will keep the same structure 
that half of the group will be local agencies and half will be 
Federal.
    Will you say to this committee, as the authorizing 
committee on HIDTAs, that you will keep half and half; or do 
you see it modeled more like the OCDETF model? I am sure Ms. 
Watson will appreciate this.
    We can say all the time, we include the minority on all 
sorts of bills and they are welcome to come to the hearings. 
There may be three of them, while there are 200 of us. They may 
even get to offer an amendment here and there, that we get to 
vote down.
    This is about power, and if the majority is Federal and the 
minority is included and the HIDTA Director gets to sit on it, 
the difference in the HIDTA program and the concept that 
Congress passed was equal, 50/50, it has been a headache.
    On national strategy, I understand it has been a headache, 
and it looks to me like you are saying, we are tired of the 
headache. We are moving it out of the Justice Department. We 
are going to have a clear top-down. We would love to have them 
along for the ride, and as long as they are good, we will keep 
them on our advisory committee. Otherwise, they are welcome to 
sit there and complain, but they are going to be voted down.
    Ms. O'Neil. Mr. Chairman, let me make myself clear, because 
I do not want to leave any mis-impression. When I was 
describing the OCDETF structure, I wanted to describe it to 
explain how even we, which you would consider to be much less 
of a State and local or regional flair-type program, recognized 
how important it is to get the input at the District level and 
the regional level. I was explaining our structure that works 
for the OCDETF program.
    Because the focus of the OCDETF program is a Federal 
program. What we do is, we fund Federal agencies through our 
appropriation, and we partner with State and locals. So our 
management structure reflects that. What we would want to do 
for the HIDTA program is to preserve what has worked so well 
for the HIDTA program, which is its focus on State and local 
law enforcement. It works differently than the OCDETF program 
does.
    We want to, then, select the management structure that 
works most appropriately to reinforce that mission. If the 
HIDTA Boards, as they have been structured, are the most 
effective way to do that, with the 50/50 participation or other 
recommendations that the HIDTA Directors may have for that 
management structure, then that would certainly be a direction 
that we would want to go.
    Mr. Souder. So you are proposing to change it, but you do 
not really know, yet? I mean, we just did a loop. Because you 
said, if the current structure is effective the way it is, then 
you would keep it; but we already have it.
    If you do not have any evidence that it is not effective, 
why are you changing it? That is, unless there is a management 
question, as Ms. Watson was just asking, which is are you 
changing the fundamental nature? You are, at the very least, 
admitting that you are going to study the fundamental nature 
and that you have not concluded how you are going to do it.
    You admit that OCDETF, which certainly has local 
participation, and I did not mean to be overly cynical about 
it, but when there are disagreements, voting rights matter. One 
of the frustrations here is that you are telling us and you are 
gradually elaborating a process of how you are going to decide 
this, but you are asking us to change it, without telling us 
what you are changing to.
    What we know is we have something that all evidence 
suggests works. There is just as much evidence that this works, 
as there is that DEA works. In other words, any criticism you 
can say of a HIDTA that it does not work, the HIDTAs are 
scoring just as high on any tests as DEA, which is under your 
watch, as Bureau Justice Assistants. Quite frankly, it is as 
effective as drug courts, which I am a strong supporter of.
    So you cannot look at HIDTAs and say, there is an 
ineffectiveness here, because we can find study after study 
that show we have a problem all across the board. It is a hard 
issue to work. The question is, on what basis, other than 
management? But now you say you are proposing, and you have not 
even decided how to manage it.
    I am sorry I cut you off, Ms. Watson. Do you have any other 
comments?
    Ms. Watson. I just have one more question. I think I will 
ask Ms. O'Neil this question. The proposal is to cut HIDTA's 
budget by 56 percent when you transfer it over to the 
Department of Justice?
    Ms. O'Neil. That is correct. The President's budget 
proposes a funding level of $100 million.
    Ms. Watson. Why would you want to cut a program that is 
zeroing in on specific local plans to address the drug 
trafficking that is discovered, and they are trying to do 
something about? Why would you suggest cutting by 56 percent 
the overall HIDTA budget? If you think that moving it into the 
Justice Department will allow more coordination, more 
flexibility to focus in on those areas and those innovations, 
why would you want to cut the funding? I do not understand 
that.
    Ms. O'Neil. Clearly, what we are trying to accomplish is to 
satisfy the budget requirements that we have in very tight 
budget times, and to achieve a budget that will meet the 
overall drug enforcement goals and further the administration's 
strategy to promote prevention, treatment, and drug 
enforcement. That does require hard choices.
    Although with the funding level of $100 million that has 
been determined, we are committed to making sure that the HIDTA 
program remains productive, to focus it.
    I think, Mr. Chairman, in his earlier remarks had suggested 
that the HIDTA program may have drifted a bit. What we would 
like to do, by bringing it over to the Department of Justice, 
by having it in a place that is responsible for the Federal 
drug enforcement strategy, to determine what is it that HIDTA 
can do best; what part of the strategy should HIDTA focus on; 
and where should it devote the limited resources that it has to 
have the biggest impact on our drug enforcement problem, 
nationwide; and then let OCDETF and other programs do other 
things.
    Ms. Watson. Let me say this in response and let me suggest 
this. I represent, as I said, Los Angeles. We are 2 hours from 
the border between Mexico and the United States. Every day, 
people are coming over that border illegally. Every day, we are 
finding that drugs are being brought over the border.
    We are finding now that Afghanistan is the biggest producer 
of heroin. That heroin is finding its way into our community. 
Our city, 3,000 miles away, is trying to tackle this. Do you 
know what they do? They go out to the community and they find 
people who look like these groups that are coming over the 
border illegally. They must have the resources.
    I do not understand how you feel you can fight this kind of 
crime more specifically, a, coming out of the Department of 
Justice, and b, with a reduced budget. Fifty-six percent is 
half. You are going to try to do more with half the means. It 
just does not compute.
    This is at a time when we are fighting and we are fearing 
terrorism on our own borders. You know, the sales of guns, I do 
not understand that. Right there, if you want to destroy a 
city, you know, you throw that bomb up in the middle of its 
impacted area.
    You are telling me that a 56 percent cut will allow you to 
focus your resources where they are needed the most. That cut, 
we could use, you know, and we could really do a good job, if 
we had the funds flowing in.
    So I think that this proposal really does not make sense if 
your goal is to reduce drug trafficking and the associated 
crimes that come along with it.
    Thank you, Mr. Chairman, I appreciate the time you have 
given me.
    Mr. Souder. I just want to clarify this for the record. My 
understanding is that New York City, which is one of the center 
places right now where we have a HIDTA, where 100 percent of 
its funds are merged in, in the main anti-terrorism center.
    You are saying you are going to cut it 60 percent; or you 
do not know, you might cut it 60 percent; you might eliminate 
it; or is it guaranteed that it is going to be there and not be 
cut? Because this is a critical part. You do not know. That is 
what I have heard so far.
    Ms. O'Neil. Mr. Chairman, at this point in time, the plan 
has not been finalized with regard to how the funding level 
will be spent; how it will be allocated; and what decisions 
will be made. The Department of Justice needs to work with 
OCDCP and with the HIDTA community to determine how we can best 
function, because we want to make sure that the HIDTA program 
is productive.
    Mr. Souder. As we look across the country at the border 
questions, urban centers, one of the concerns here would be 
that this is a proposal to cut the HIDTAs, many of which, or 
the biggest ones, are in urban centers. Those are represented 
by Democratic members.
    If you assured us and said, oh, we are not going to cut the 
HIDTAs in those big urban areas that are mostly represented by 
Democrats, then you are proposing to cut the HIDTAs that are 
represented mostly by Republican members. Are you suggesting 
that the administration wants to do this without talking to 
Congress?
    Ms. O'Neil. We would certainly look forward to working with 
the committee, as the plans are finalized and the funding 
levels are finalized.
    Mr. Souder. But you were not going to talk to State and 
local law enforcement before you came to Congress with this; 
and not only did you not talk to Congress before this, but what 
I heard you to say is, we are going to come up with some 
procedures, and then we are going to make decisions about 
whether to cut New York or leave New York, or whether we will 
keep the ones in the center of the country where 
methamphetamines are present.
    You can see why it is hard here. I mean, you are defending 
a very tough position. I appreciate how difficult it has been 
today. But it is just unbelievable that your departments would 
send you up here with no specifics, when we are headed into a 
budget and, in effect, say, look, we do not know who is getting 
wiped out. We do not even know how we are going to measure who 
gets wiped out. We would like to have it over here.
    It starts to look, quite frankly, and I am going to say 
this on the public record, like the Attorney General's Office 
lost a lot of their staff to Homeland Security. So they decided 
to go poach the ONDCP office and say we are going to focus on 
the drug problem, unless there is another issue that comes up.
    Let us say that organized crime becomes a big thing. Then 
because your office is Attorney General, and not drugs of which 
drugs are a part of it, our concern is, once you basically wipe 
out the ONDCP, once you weaken the HIDTA system, where we have 
an even partnership, which is a model-type program, in effect 
to question whether we should have some in each State that then 
goes up.
    Then also there is the Byrne grant, which we have not 
talked about much, and we will certainly talk about in the next 
panel, which funds those areas that do not have a HIDTA. Their 
Drug Task Forces are usually funded through a Byrne grant.
    In effect, you are proposing changing the whole nature of 
how we fight drugs in the United States, without consultation. 
Then you are telling us, no, we are not. We are going to 
consult before, because that was pre-decisional, but you are 
not going to consult with us after.
    You might inform us, and we will certainly give our 
opinions at hearings. But you are missing the whole 
appropriations process. You are missing the whole authorizing 
process. You are missing multiple branches of Government.
    You have to have some kind of compelling case. The 
disturbing thing today is, you have not made any compelling 
case. Your compelling case is, we think it would be better 
consolidated under the Attorney General's Office.
    But why is that? The closest you have come to criticizing 
ONDCP is that you refer to something that I said, which is, the 
mission has drifted a little bit. So you are, in effect, saying 
ONDCP could not control it. Director Walters was not a good 
enough cabinet member to control this, so we think it ought to 
go over to the Attorney General's Office. That is, in effect, 
what you just said.
    Your saying that some HIDTAs are doing really well implies 
that many HIDTAs are not doing really well. But you cannot name 
one. You cannot name three. We certainly would ask you to 
submit to us if you can say, look, what are the specifics. 
Delineate them.
    If you want Congress to change its budget, Congress writes 
the budget. That is relatively, in American history, a new 
thing that the President proposes the budget. It is basically 
because we could not, and we wanted the executive branch to do 
it. But we start the appropriations process over here; not this 
committee, but the Appropriations Committee.
    But as we move through this process, there has to be some 
reasons given for overhauling more than, we think it would be 
nice to consolidate because we would like to control it through 
the Attorney General's Office. That is not going to fly. You 
have to have some kind of substance.
    I have one last thing. On the Byrne grants, I just want to 
clarify this, because twice it has been brought up that there 
was some abuse in Byrne grants. Is the administration was 
testifying that you are eliminating Byrne grants because there 
was corruption in Byrne grants?
    Ms. Henke. No, we are not.
    Mr. Souder. Did it impact your decision to eliminate Byrne 
grants, that you are worried about corruption in Byrne grants?
    Ms. Henke. It might have played some role.
    Mr. Souder. Is it your testimony that you believe by moving 
it away from Byrne grants and putting it more under Federal 
control, that there will be less corruption?
    Ms. Henke. The Byrne grants are straight State and local. 
We are not moving them. What the budget proposes is the 
elimination of the Byrne Justice Assistance Grant Program; not 
based on the corruption or possible concerns that have been 
identified in the past by Inspector General reports and others.
    Mr. Souder. Then why are you eliminating them?
    Ms. Henke. As my colleagues have stated, but as I had hoped 
to maybe clarify a little bit, this is a very difficult budget 
year. You are well aware, Mr. Chairman, that discretionary 
spending, in essence, is frozen. That means that in preparing 
the President's budget, some very difficult budget decisions 
had to be made.
    What we had to look at were programs with demonstrable 
results. We had to look at what was the true Federal role; what 
is the true Federal responsibility? Where can we take the 
resources that we do have available under this budget, and 
direct them in a targeted fashion to be, as Mr. Cummings was 
pointing out, efficient and effective? That is what we have 
attempted to do.
    The Byrne Justice Assistance Grant Program, we do know, has 
funded a lot of Task Forces. What we also do know is that for 
fiscal year 2005, over the past several years, the funding that 
Congress has provided for this programs or the programs prior 
to the merging, has been declining.
    Four years ago, it was over $1 billion. Last year, it was 
approximately $500 million or $600 million. So it has been 
declining. Last year's appropriation represented less than 1 
percent of the criminal justice expenditures made by State and 
locals. So those were some of the factors that did go into 
consideration.
    Mr. Souder. So because you crossed several there, I mean, 
there are ideological things that you put in there, and then 
there are practical things. You suggested you wanted to put in 
the programs that were demonstrably effective. Do you have any 
evidence that Byrne grants are less effective than other 
programs?
    Ms. Henke. Unfortunately, we do not have tangible outcomes 
from the Byrne grants. Part of that is, the Byrne grants have 
over 32 purpose areas. So entities are allowed to spend them on 
a wide variety of things, from prosecution to law enforcement, 
correctional items, drug courts, victim assistance. So it makes 
it very difficult to identify outcome measurements for a 
program that has such a wide variety of purpose areas.
    Mr. Souder. There were alternatives to that, granting that 
is a problem when you are having this drug prevention, drug-
free schools money, too, which you are proposing.
    Ms. Henke. And we have.
    Mr. Souder. But let me ask you a question. Why did you not 
come to Congress and then say, narrow the scope of the Byrne 
grants? Why did you not come to Congress and say, we need 
better research on the Byrne grants? Why would you come and 
say, eliminate the Byrne grants?
    Ms. Henke. What we have done over the past couple of years 
is, we have instituted programs, for instance, evaluations of 
the Justice Assistance Grants Program or the Byrne NNLBG. For 
this current fiscal year, we have put in place measurements. We 
are asking the recipients to provide us hard outcome 
measurements for the resources that they are receiving.
    But in this budget, once again, hard choices had to be 
made. Those hard choices unfortunately resulted in the 
proposal, in many cases, and we know that it is difficult for 
State and local law enforcement, to propose the elimination of 
this program. But part of that also goes to, once again, as I 
stated, the tough choices.
    We have come to Congress to talk about some of those 
things; for instance, the merger of the Justice Assistance 
Grant Program. The President has proposed that for 3 years. We 
worked closely with the Authorization Committee on that 
program, as well as numerous other programs, and we look 
forward to continuing to do so.
    Mr. Souder. Well, thank you, and I know I have taken a lot 
of time on the first panel and people are waiting. But let me 
say, as we told Director Walters, if we have an ideological 
difference, we have an ideological difference.
    It is a legitimate debate. Should Federal dollars be used 
for things that are more Federal directed, and how much do we 
do, State and local? If that is the decision, that is fine.
    But when you raise questions about effectiveness, you have 
an obligation to come to us, and I will make the open 
invitation and we would like to have it for this hearing 
record, with any evidence that you have that Federal-directed 
programs are more effective than the Byrne grants and the 
HIDTAs; or any sign that when you are making these hard 
choices, that this was based on some sort of evidence of what 
is effective, as opposed to evidence of an ideological choice 
that Federal dollars ought to be Federal-directed, which we can 
have a debate about.
    My personal belief is, this was more of an ideological 
decision, and that you are distracting from that debate by 
raising questions of effectiveness. Because we have looked for 
effectiveness things and, quite frankly, in the whole drug and 
narcotics field, it is difficult to measure effectiveness, 
particularly as we push cooperation.
    When something is effective, we find 100 agencies involved 
in it. Therefore, how you attach who gets what points in 
effectiveness or ineffectiveness, it is nearly impossible to 
do. But then you should not imply that the decision was 
effectiveness. If you have any evidence of that, we would like 
to see that.
    Are there any other questions? Mr. Cummings.
    Mr. Cummings. I just have one thing, Mr. Chairman. Just 
adding on to what you just said, I want the clarification that 
you just talked about. I am sorry I had to step out, but I did 
listen to a bit of it.
    The clarification about ideology, as opposed to 
effectiveness, is very important. I emphasize this. They are 
human beings. You said you are from a police family. You 
understand what I am saying.
    They are human beings, and if you start talking about their 
effectiveness, it gets real personal. They start beginning to 
ask themselves, well, you know, you mean to tell me you all 
cannot see what we have been doing?
    The last thing we need is for the morale of those who are 
fighting on the front line to be, in any way, diminished. If 
anything, we need to be trying to lift them up and give them 
the tools that they need to do what they need to do. It is 
clear that this effort against drugs is one that is very, very, 
very difficult.
    People risk their lives. They risk their livelihoods. They 
risk their families over this thing called drugs. So I always 
want us to keep that human element involved there. Because, 
believe me, when we go back to our offices today, we will have 
all kinds of calls from all over the country of people who will 
say, thank you for remembering us.
    I just do not want us to get away from them. So I did not 
want you all to take my words in any other way than that is 
where I am coming from; thank you.
    Mr. Souder. Thank you, and let me say, too, if you will 
communicate to Attorney General Gonzalez, I am thrilled to have 
an Attorney General who wants to do drug issues, and who is 
very focused, and it is a great sign. I think we need to work 
out how we are going to do this.
    But whether or not these funds are transferred over, the 
Attorney General still has, like you pointed out today, Weed 
and Seed, DEA, Office of Justice Assistance, drug reentry 
programs, drug court programs.
    The Attorney General is certainly one of the major players, 
if not the major player, in addition to the Department of 
Homeland Security and ONDCP, in this, regardless of what 
happens with this budget process.
    I am thrilled that he is taking an aggressive interest and 
your departments are taking aggressive interest, even if we 
have disagreements about how to deploy these programs. Director 
Walters has been a friend of mine for many years. I know he is 
committed, but it is really frustrating to have this happen to 
ONDCP if this transfer occurs on his watch.
    With that, I thank each of you for coming, for being 
willing to put up with grilling today. It is never fun coming 
in front of a congressional committee, but this is an oversight 
committee and this is what we do, and we have a fiduciary 
responsibility to do so.
    Thank you for coming. I would ask the second panel to come 
forward.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. Thank you for your patience, 
first with the vote delay and then the long first hearing. I am 
sure you found it very interesting, as well.
    We are looking forward to hearing your testimony. We will 
start with Mr. Ron Brooks, president of the National Narcotics 
Officers Associations Coalition.
    Let me say up front that all your testimony will be in the 
record. If you want to do some highlights or respond, obviously 
this was the first time we heard from multiple departments 
about the budget request. But feel free to do your statements, 
if you want do to your statements; either way you want to do 
it.
    But we will insert anything, and if you want to write 
additional comments later, because there are a lot of you on 
this panel, send that in, and we will put that in the record, 
too. If you know other people on your HIDTA Task Force, when 
you go back home and share some of what you heard today, and 
you want to get that in, that is fine. We want to make sure we 
have a comprehensive mix in this hearing, as we look at the 
huge challenge of how to do this budget. Mr. Brooks.

STATEMENT OF RON BROOKS, PRESIDENT, NATIONAL NARCOTICS OFFICERS 
                     ASSOCIATIONS COALITION

    Mr. Brooks. Chairman Souder, Ranking Member Cummings, 
members of the subcommittee, thank you for inviting me here. It 
is always a distinct pleasure to be at this subcommittee. I 
want to offer my perspective on the disastrous impact of the 
President's budget request for State and local drug enforcement 
programs, including Byrne and HIDTA.
    My name is Ron Brooks, and I am the president of the 
National Narcotics Officers Associations Coalition, which 
represents 43 State Narcotics Officers Associations, with a 
combined membership of more than 60,000 police officers around 
the country.
    Mr. Chairman, together, we have made outstanding progress 
in reducing drug use and violent crime over the past decade. 
But that progress is threatened by the budget proposal for 
State and local drug enforcement programs in fiscal year 2006. 
Congress must seriously consider the consequences of cutting or 
eliminating Byrne and HIDTA programs.
    Since September 11, 2001, the focus of Federal assistance 
to State and local public safety agencies has shifted from 
traditional law enforcement to protecting the homeland against 
terrorist activities and equipping first responders. This is 
appropriate, however, the shift is coming at the expense of 
traditional law enforcement missions, such as drug enforcement.
    In shifting resources to Homeland Security, we must not 
lose our focus on drug enforcement and prevention. In fact, 
protecting our homeland must mean protecting citizens from drug 
traffickers and violent drug gangs.
    Let me put in perspective the impact of drug abuse. We lost 
almost 3,000 Americans on September 11th. In contrast, more 
than 3,000 Americans die every 2 months, more than 19,000 
people each year, as a result of illicit drug abuse and its 
related effects.
    In addition to the human toll, ONDCP estimates that elicit 
drug abuse costs our society $160 billion each year. I believe 
that a cost of 19,000 lives and $160 billion makes drug 
trafficking America's own home-grown terrorism, and it must be 
restored as a top priority in this Congress' policy agenda.
    The Byrne and the HIDTA programs provide only a small 
amount of the overall funding that is dedicated to State and 
local drug enforcement. But this funding is the incentive that 
encourages State and local law enforcement officers to work 
with their Federal counterparts, and help them implement our 
national drug control strategy.
    It is the coordination that has improved the effectiveness 
of drug enforcement, and has helped reduce drug abuse and 
violent crime. I want to address the argument that provides the 
underpinning of the administration's proposed cuts, which is 
that Federal Government has gotten too deep into funding State 
and local law enforcement activities.
    I agree that the Federal Government should not supplant 
State and local funds for law enforcement activities. But I 
strongly disagree that Byrne and HIDTA fall into that category.
    Byrne funds multi-jurisdictional task forces that do not 
replace State and local funds; but rather provide the incentive 
for local agencies to cooperate, to communicate, to share 
information, to build good cases, and to pursue organizational 
and regional targets, rather than just individual pushers that 
local agencies typically deal with.
    Both enforcement targets are valid and necessary, but 
without Byrne, law enforcement would go back to the 1970's, 
where we worked within our own stovepipes, without cooperating 
and using intelligence to lead us in investigating drug 
trafficking organizations.
    HIDTA initiatives like Byrne-funded Task Forces provide 
avenues of cooperation, forced information sharing, 
deconfliction of local and regional intelligence, analysis that 
State and local agencies simply are incapable of performing 
themselves, and that Federal agencies are inadequately focused 
and equipped to perform.
    HIDTA and Byrne Task Forces work because they are locally 
owned. They are a partnership between the Federal, State, and 
local government.
    If Congress allows Byrne to be canceled and HIDTA to be 
cut, and if you reduce or eliminate the local control over 
individual HIDTAs, then you effectively remove an entire line 
of defense against drug trafficking at the local and regional 
level.
    Another argument I have heard from the administration is 
that since crime and drug use are down, resources should be 
shifted to other priorities. I could not disagree with this 
statement more.
    You saw in the early 1990's, that when resources were 
shifted out of the fight against drugs, drug usage and crime 
rates increased. We should be embracing what has worked; not 
calling it a day and dismantling a successful program.
    The question that must be asked and answered by this 
Congress is, in light of the successful reduction in drug use 
and drug-related crime, should America gamble the safety of its 
citizens by rejecting programs that have allowed police chief, 
sheriffs, and State police superintendents to fight drug and 
violence in their own communities?
    If the administration's fiscal year 2006 budget is passed 
as submitted and, in fact, if Byrne and HIDTA are not restored, 
at least to fiscal year 2005 funding levels, suburban and rural 
law enforcement will no longer have the financial resources 
they need to use the best methods they know how to tackle the 
problem of drugs and drug-fueled gang activities in their 
community.
    Without Byrne and HIDTA, we will see a resurgence of drug 
usage and drug-related violence. I believe, from talking to my 
members that this will mean the elimination of the vast 
majority of the Drug Task Forces in this country.
    I know that in California, we will lose the majority of our 
58 Task Forces, and at least a third of the California 
Department of Justice's Bureau of Narcotic Enforcement. 
Frankly, Mr. Chairman, we would giving up coordinated drug 
enforcement at the State and local level.
    With funding cuts already taking a toll in the last 3 
years, Task Forces operating on a shoe string will go away. 
Anything less than full funding of Byrne will result in the 
elimination of more than half of our Task Forces. The overall 
impact on drug enforcement would be almost the same as 
eliminating the program entirely.
    This budget proposal is a step in the wrong direction. We 
have made tremendous progress over the last few years with the 
leadership of this committee and the Congress with the support 
that the State and local law enforcement has received.
    I, on behalf of our 60,000 members, would urge the 
restoration of the Byrne and HIDTA funding at the 2005 levels, 
and the retention of the HIDTA program at ONDCP, where it 
serves as a fair and honest broker on behalf of all of law 
enforcement. Thank you.
    [The prepared statement of Mr. Brooks follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Thank you very much.
    Our next witness is Mr. Tom Carr, director of the 
Washington-Baltimore HIDTA, on behalf of the National HIDTA 
Directors Association.

STATEMENT OF TOM CARR, DIRECTOR, WASHINGTON-BALTIMORE HIDTA, ON 
       BEHALF OF THE NATIONAL HIDTA DIRECTORS ASSOCIATION

    Mr. Carr. Thank you, Chairman Souder and Ranking Member 
Cummings and Congresswoman Watson, and distinguished members of 
the committee. I am honored to appear before you today to 
discuss the HIDTA directors' concerns with the administration's 
fiscal year 2006 budget proposal. My name is Tom Carr, and as 
mentioned, I am and have been since its inception in February 
1994 the director of the Washington-Baltimore HIDTA.
    I am going to change my oral testimony somewhat, in light 
of the previous testimony. But I would like to, first of all, 
for the record, acknowledge, Mr. Chairman, you and Mr. Cummings 
for the outstanding work you both have done in Baltimore. Both 
of you responded to the Dawson family tragedy, which happened 
not too long ago, where seven members of a family were killed 
by a drug dealer. They were burned out of their home and 
killed.
    You went to ONDCP and you got extra money from ONDCP to 
help fight the crime problem in Baltimore. We came about 
working together with some serious reductions in violent crime 
and drug dealing in that area. You both should be commended for 
that. I know that Commissioner Hamm, who has recently inherited 
that department is very much appreciative of what you both have 
done.
    Let me just shed some light, and I think that is the right 
medicine for all this, and I am glad you are doing this. I will 
shed some sunlight on some things that are taking place.
    First, let me say that HIDTA makes linking cases 
originating with State and local agencies possible to bring to 
Federal prosecution. It is the bridge between Federal, State, 
and local agencies. I did not hear any data in the testimony 
before, so let me give you some data about HIDTA and what HIDTA 
is doing.
    With 70 percent of the HIDTAs reporting to me thus far and 
our new automated performance management system, for 2004, the 
HIDTA program targeted 895 international drug trafficking 
organizations, 1,111 multi-state organizations, and 1,734 local 
drug trafficking organizations, many of which were violent in 
nature.
    Of the cases we did, 232 were linked to CPOT 
investigations. This represents 32 percent of the 730 total 
active investigations recognized by the Department of Justice. 
So I would hardly call this a failure in the ability of us to 
recognize the value of the CPOT in the priority targeting list.
    HIDTA Task Forces also comprised over 12,000 Federal, 
State, and local officers. We disrupted 99 of the 159 
organizations of which DEA and OCDETF are claiming sole credit 
for, insofar as the CPOTs are concerned.
    Let me also suggest to you, and I think you recognize this, 
that the HIDTA program grew, not because it was pork barrel; it 
grew because it was successful. That is why people want it. It 
works.
    State and local law enforcement have to commit a vast 
amount of their own resources in order to join with a HIDTA. 
HIDTA dollars, as few as they are, leveraged those resources. 
That is why people want it, though. They want it because it 
works. State and local law enforcement see the value of sharing 
information, working on a strategy, working on a plan to bring 
about positive results.
    Now I would like to talk about what the administration has 
said about one of the reasons for getting rid of the HIDTA 
program and moving the HIDTA program: lack of effectiveness and 
its inability to demonstrate results.
    At the initiative of the HIDTA directors, in response to 
that first PART review, we established the committee, which I 
had the honor of chairing, in which we worked with staff from 
ONDCP to create a performance measurement system. That system 
now is in effect. It went in effect in January. That is why I 
can give you that data. It is an automated system. It is 
showing results, and it is showing that we are truly focused.
    Part of the problem was, I think, the administration was 
looking and shooting from the gut and shooting from intuition, 
as opposed to using facts to demonstrate what HIDTA was really 
doing.
    We were inclusive. We worked with DEA and we worked with 
OCDETF. I know it is shocking, but it may not surprise you to 
learn that we had to come up with a definition for what a drug 
trafficking organization is. The Federal Government did not 
have a uniform definition; nor did they have one for dismantled 
or disrupted or about 20 other common terms that were necessary 
to clearly define in order to measure effectiveness and 
efficiency.
    We came up with those measures. We are using those 
measures, and they are showing results and they will show 
results.
    They will also enable us to show which HIDTAs are doing 
better than other HIDTAs, and perhaps at a later point in time, 
based upon scientific fact, we can inform you of this, and 
people can make informed decisions on which HIDTAs ought to be 
eliminated, which HIDTAs ought to be changed to some degree, 
and which HIDTAs ought to be bolstered. So I think that is a 
more logical way to go about these things than what I have 
heard in the previous testimony.
    Let me also say that some very wise and thoughtful members 
of the House of Representatives and the U.S. Senate chose to 
place the HIDTA program in ONDCP. Why, and I have researched 
this and I agree with it, because of how it is managed in 
ONDCP, the HIDTA program enjoys a degree of visibility, 
efficacy, fairness, and neutrality; points that all three of 
you have recognized in your questioning.
    So before you consider ONDCP's recommendation to move the 
HIDTA program to the Department of Justice, I want you to think 
about some of the unintended consequences that such a rash and 
obviously unplanned move would bring about.
    Here are some questions, and I want to close my comments 
with this. These are some questions I think that ought to be 
considered before any decision is made. Will the transfer of 
the HIDTA program preserve its visibility, its efficacy, and 
its ability to leverage and coordinate Federal, State, and 
local drug enforcement efforts?
    Does OCDETF have a history of effective performance? What 
impact do State and local law enforcement leaders foresee for 
the transfer and diminishment of the HIDTA program? I think my 
colleagues today will shed some light on that. What harm will 
result when the cooperation among Federal, State, and local law 
enforcement is diminished? Under the current administration's 
plan, let me assure you, with 34 years of experience in this, 
it will be diminished, the way it is structured.
    I will leave you with this one final thought. Since the 
administration's proposal increases the drug control budget by 
2.2 percent, I believe Mr. Horton said, the reduction of the 
HIDTA program is not one then about paying for the war on 
terrorism. It is about choices.
    Why did ONDCP really choose to reduce the HIDTA program? I 
do not think you have an answer to that, yet. Why did they 
choose to transfer it to the Justice Department, while at the 
same time, elect to keep other programs within ONDCP that, by 
the way, did not do as well in their initial PART's score?
    I thank you again for the opportunity to appear before this 
committee. Again, I appreciate all the great work, Mr. 
Chairman, that you and the other Members have done, and I look 
forward to any questions at the end; thank you.
    [The prepared statement of Mr. Carr follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Thank you; next we will hear from Mr. Tom 
Donahue, director of the Chicago HIDTA.
    I know the Speaker has been very supportive of your HIDTA. 
He used to chair this subcommittee, and has been our chief 
champion in the higher ranks of leadership. He is a very busy 
man, but I know he has been very pleased with the efforts in 
Chicago. Thank you for coming today.

       STATEMENT OF TOM DONAHUE, DIRECTOR, CHICAGO HIDTA

    Mr. Donahue. Chairman Souder, Ranking Member Cummings, and 
distinguished members of the committee, I am honored to appear 
before you today to discuss the Chicago HIDTA's concerns with 
the administration's fiscal year 2006 budget proposal that 
contains unprecedented budget cuts for the HIDTA program, and 
suggests transferring the program to the Organized Crime Drug 
Enforcement Task Force.
    I appear before you with over 37 years of law enforcement 
experience. During that time, I spent 10 years as an narcotics 
investigator and 12 years as an experienced prosecutor, 
concentrating on prosecutions of organized crime, narcotics 
cases, and related violent crimes. I have had the honor of 
serving as the director of the Chicago HIDTA since August 2000.
    My testimony today will attempt to answer the question 
posed by the committee. ``Are we jeopardizing Federal, state, 
and local cooperation?'' In a phrase, yes we are, drastically.
    In 1988, Congress wisely recognized the importance of 
coordinating Federal, State, and local law enforcement agencies 
to effectively address the Nation's drug threat. Congress 
established the High Intensity Drug Trafficking Area Program to 
provide a coordination of drug enforcement efforts in critical 
regions of the country.
    This coordinated effort was necessary due to competing 
strategies within the Federal, State, and local law enforcement 
community.
    Building on the concept that the country faces a national 
drug abuse epidemic which is, in reality, a network of related 
and unrelated regional and local drug abuse problems and the 
markets that supply them, HIDTAs address regional drug problems 
based upon a unique threat assessment process.
    Each HIDTA develops its own strategy, consistent with and 
complimentary to the National Drug Control Strategy. HIDTA 
Executive Boards implement their strategies by funding 
structured and formal initiatives, each with a mission that 
best uses its particular expertise and addresses a particular 
threat.
    A targeted strategy, implemented locally, produces greater 
immediate impact, while at the same time, provides avenues for 
further investigation into national and international 
trafficking groups.
    HIDTA Executive Boards, as you have noted, are comprised of 
an equal number of Federal, State, and local law enforcement 
executives that meet regularly to govern each HIDTA. The HIDTA 
management structure creates a level playing field among 
Federal, State, and local partners, who understand all aspects 
of law enforcement, and put the interests of the HIDTA above 
their own.
    This neutrality fosters an innovative program, immune to 
turf battles. No other program of the Federal Government that 
integrates State, local, and Federal assistance and financial 
awards allows this level of local oversight and direction. This 
is the first time in history State and local law enforcement 
has been empowered to manage drug investigations in their own 
regions.
    The program requirements of establishing intelligence 
centers within each HIDTA and mandating Federal, State, and 
local participation has resulted in the sharing of intelligence 
on an unprecedented scale. Each HIDTA has direct access to 
multiple agency and commercial data bases, and provides a full 
range of analytical services.
    The HIDTA Investigative Support Centers now stand as an 
object lesson in interagency cooperation, collaboration, and 
coordination.
    Two of the most innovative things that have come out of the 
investigative support centers are event deconfliction and 
target deconfliction, which will no longer be there if the 
funding is cut back. In the Chicago region, the only 
deconfliction that is done is through the Chicago HIDTA.
    In event deconfliction, I have pioneered systems that allow 
undercover officers to schedule a time and location for events 
such as stakeout, drug buys, execution of search and arrest 
warrants, and to determine if the event they are scheduling 
would conflict with a different agency for a similar time and 
location.
    Event deconfliction is a requirement within the program, 
and is available to non-HIDTA agencies, as well. In the Chicago 
region, we have trained over 2,000 people to be part of our 
deconfliction system. This system is critical to officer 
safety.
    The second part I am talking about is the target 
deconfliction. Agencies have wasted countless resources 
investigating the same targets, an acacia of systemic 
difficulties or reticence to share information. HIDTAs have 
developed systems that allow agencies to share targeting 
information, and are actively working with DEA and other 
Federal agencies in nationwide programs developed and 
administered by the individual HIDTAs.
    HIDTA's most important contribution, however, to the war on 
drugs is the partnerships it has nurtured among participating 
agencies. These partnerships developed over the years have 
become an institutionalized part of the program.
    The leveraging of resources and fiscal flexibility will 
likely be eliminated by placing HIDTA under the Department of 
Justice. Furthermore, placing HIDTA within a department that 
gives the perception that it is under the control and direction 
of a Federal law enforcement entity would certainly influence 
State and local participation, and threaten collaborative 
partnerships that have been nurtured by the HIDTA model.
    If the HIDTA program is moved from the Office of National 
Drug Control Policy in the Executive Office of the President, 
it will give the wrong message to law enforcement and diminish 
the importance of the war on drugs in the eyes of the public.
    Just so you will understand, in Chicago, the war on drugs 
is raging. In 2004, Chicago HIDTA initiatives seized over a ton 
of cocaine, an increase of 103 percent from the previous year; 
40 kilos of heroin, a 75 percent increase over the previous 
year; 8 tons of marijuana, a 270 percent increase over the 
previous year; and over $9 million in U.S. currency, a 51 
percent increase over the previous year.
    In conclusion, HIDTA clearly represents a model for 
leveraging all resources in order to provide comprehensive 
approaches for stopping drug crime. Without the ability to 
maintain the operational collaboration made possible by the 
HIDTA resources, local law enforcement faces a risk of 
returning to the days when cooperation was episodic, delivered 
on a case-by-case basis, and found to be generally ineffective 
in disrupting drug trafficking.
    At a time when State and local governments are increasingly 
forced to cut budgets because of economic difficulties, it is 
imperative for the Federal Government to continue local 
assistance against what is still the war on drugs.
    HIDTA is an intrical part of that assistance. Media ads 
alone will not eliminate drug abuse. More effective is the 
multi-faceted approach HIDTA brings. Now that we have developed 
a viable and effective way of combating these organizations on 
a national and regional level through HIDTA, it is not the time 
to pull back or try to reorganize.
    This country is at war on several fronts, including the 
streets of our major cities. We have won many battles through 
the HIDTA program. Yet, the war rages on. Terrorists murdered 
over 3,000 U.S. citizens on September 11th, and 1,500 soldiers 
have died in the streets of Iraq.
    In the streets of our major cities and surrounding 
communities, street gangs and drug dealers, better referred to 
as urban terrorists, have caused the drug-related deaths of 
over 19,000 of our citizens. We must continue to maintain and 
increase the support in this noble fight. Thank you for this 
time.
    [The prepared statement of Mr. Donahue follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Thank you very much.
    Our next witness is Chief Jack Harris, Phoenix Police 
Department and Vice Chair of the Southwest Border HIDTA. Thank 
you for coming today.

 STATEMENT OF CHIEF JACK HARRIS, PHOENIX POLICE DEPARTMENT AND 
               VICE-CHAIR, SOUTHWEST BORDER HIDTA

    Mr. Harris. Thank you, Mr. Chairman and members of the 
subcommittee. I think when we start looking at, do the policies 
and the programs that are current in existence work, and we try 
to evaluate those policies, we have to say that currently, they 
are working.
    We have statistics that show that drug use is down by 11 
percent, and teenage drug use is down by 17 percent in this 
country. But we have to ask ourselves why is that?
    Let me give you just a couple of numbers from the Southwest 
HIDTA and HIDTA, in general: marijuana, seized over 2\1/2\ 
million pounds of marijuana in 2004; 46,600 pounds of cocaine; 
740 pounds of heroin, and 5,000 pounds of methamphetamine out 
of the Southwest Border.
    When we look at HIDTAs in general, they disrupted or 
dismantled in 2004, 509 international, 711 multi-state, and 
1,010 local drug trafficking organizations. Those are the type 
of things that are examples of what is going on in HIDTAs 
across this country.
    I have several concerns that have been voiced by other 
members of this panel: cutting HIDTA funding by 56 percent. I 
understand, listening to the first panel, that one of the 
reasons that the administration is looking at cutting is 
because there is a shortfall of revenue.
    I currently have been asked to cut funding for the Phoenix 
police department, because of a similar shortfall. To do that, 
one of the first things that I did was surveyed the community, 
and asked them what was important in policing in their 
community, what they are looking for from the Phoenix police 
department. At the top of their list is drug enforcement and 
gang enforcement and violent crime. As you may have guessed, 
even though I did have to make cuts, I did not make cuts in 
those areas.
    Moving the program from ONDCP to OCDETF, I have to say that 
I am in total opposition of that. OCDETF is an administrative, 
non-operational body that provides funding and prosecution, not 
drug enforcement investigations.
    HIDTA was formed, as you have heard, as a grassroots 
program, designed to promote inter-agency cooperation between 
Federal, local, and State agencies. That is occurring every day 
in Phoenix.
    We have a HIDTA center that is comprised of over 300 agents 
that represent ATF, FBI, DEA, the Phoenix police department, 
local police agencies, the sheriff's office, and the State 
police. They are sharing information that caused all of those 
seizures that I talked about at the beginning of this 
presentation to occur. That cooperation and communication 
between agencies is what brought down those heads of crime 
organizations dealing with drugs.
    We have a similar program in Tucson, AZ, a similar center 
that has the sane results with the same number of people, 
working out of that center. Those centers will disappear if the 
funding disappears. The city of Phoenix does not have $1\1/2\ 
million to apply to these centers and to keep this program 
running.
    The next thing that I would talk about is what is the 
incentive for local law enforcement. If you take away all of 
the funding, if you take away an equal voice in who is going to 
be targeted by that funding, then you are asking us to play and 
to participate and to conduct the investigations.
    By the other panels own statement, over 90 percent of the 
OCDETF are conducted by local agencies. So you are going to ask 
us to continue to be a part of that organization and to target 
individuals that we have no input on.
    If you look at those first numbers that I gave you, over 
1,100 of those kingpins that were targeted were local 
traffickers. Local traffickers become national traffickers, who 
become international traffickers. We do not want to lose the 
incentive for us to participate with our detectives, with our 
investigators and with our resources. But we cannot do that 
without the funding that currently exists.
    In conclusion, I oppose the proposed funding cuts, because 
those cuts will have a dramatic impact on drug enforcement at 
the local level. The proposed changes will damage cooperation 
and relationships between local, State, and Federal entities. 
These changes would eliminate local input into drug target 
selection and remove the incentives for local agencies to 
participate in critical drug enforcement programs.
    Last, it would hinder information sharing between the very 
agencies tasked with drug enforcement at the local level, as 
well as the Federal level, thank you.
    [The prepared statement of Mr. Harris follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Thank you very much for your testimony.
    Our next witness is Baltimore's acting police commissioner, 
Mr. Leonard Hamm. Thank you for coming today. We know your city 
has been hard hit; and Mr. Cummings, as well as Mr. 
Ruppenberger have been long-time advocates, and particularly 
our distinguished ranking member. So thank you for taking time 
out to come here today.

STATEMENT OF LEONARD HAMM, ACTING BALTIMORE POLICE COMMISSIONER

    Mr. Hamm. Thank you, Mr. Chairman, Mr. Cummings, and Ms. 
Watson; thank you for having me. I am honored that you would 
have me here testifying on the drug budget for fiscal year 
2006.
    My name is Leonard Hamm, and I am the acting police 
commissioner of Baltimore City. I have been doing this for 30 
years; 30 years, this drug stuff for 30 years on the local 
level.
    One of the things that was not talked about by the other 
panel was results. I am going to give you some results. A lot 
of times, numbers are boring, but please just bear with me.
    All partners in HIDTA work under a form of measured success 
and management for results. In this successful HIDTA formula 
that law enforcement has worked on for years, this will 
jeopardize the major cases, networking, leads, and partnerships 
which have proven to work.
    Now I want to talk about some of the groups and some of the 
things that we are doing locally. First of all, we have Group 
51, which is our Violent Trafficking Initiative. In short, this 
initiative investigates violent gun drug traffickers and 
organizations that impact on the Baltimore Metropolitan area.
    In 2005, our expected output is to arrest 80 drug/firearm 
traffickers, seizing $770,000 in criminally obtained assets, 
disrupt or dismantle 10 major drug trafficking groups, and 
seizing 2 kilos of heroin, 10 kilograms of crack cocaine, and 
10 kilograms of marijuana.
    Now in fiscal year 2005 to present, the group has arrested 
21 persons, seized $617,000 in moneys and assets; 1\1/2\ kilos 
of heroin, 11 firearms, 1.6 kilograms of cocaine, 2.7 kilograms 
of marijuana, and dismantled and disrupted three organizations.
    The 2004 actual outputs consist of nine organizations being 
dismantled and disrupted, 62 people arrested, seizing $891,000 
in money, $200,000 in assets, 36 firearms, 3\1/2\ kilograms of 
heroin, 8.7 kilograms of cocaine, 1 kilogram of crack, and 9.9 
kilograms of marijuana. Baltimore City has five members 
dedicated to this initiative.
    I want to talk about our Group 54. This is our major drug 
trafficking initiative. This initiative primarily focuses on 
major cocaine and heroin trafficking organizations.
    The 2005 expected outputs are to seize 50 firearms, $1 
million in drug assets, 3 kilograms of heroin, 10 kilograms of 
crack cocaine, and 15 kilograms of marijuana, to include 
dismantling of 10 drug organizations.
    For fiscal year 2005 to present, this group is well on the 
way to achieving that expected output. They have seized 
$263,000 in money and assets, 18 kilograms of cocaine, 27 
arrests, 0.16 kilograms of crack cocaine, 0.35 kilograms of 
heroin, and disrupted and dismantled two organizations so far 
this year.
    The 2004 actual outputs consisted of 14 organizations being 
dismantled or disrupted, 89 arrests. They seized $1,025,000 in 
money, $47,000 in assets, 25 firearms, 3.9 kilograms of heroin, 
28 kilograms of cocaine, and 2.3 kilograms of marijuana.
    We have a REDRUM Group, and that is part of our Group 54. 
They work jointly with Group 54. However, their primary focus 
is to topple violent groups in Baltimore City. One group that 
the Congressmen know about, they call themselves the North 
Avenue Boys.
    Working closely with our Homicide Unit, State and Federal 
prosecuting teams, we identified their violent trends and 
patterns through data base analysis and crime mapping, and we 
work jointly with the Homicide Unit and the State and Federal 
prosecutors to bring the responsible parties to the table for a 
successful prosecution. Baltimore City has 12 members dedicated 
to the entire Group 54 initiative.
    Group 56 is our Mass Transportation Initiative. Their 
efforts and their mission is to reduce drug trafficking in the 
Baltimore Metropolitan area by interdiction efforts and 
immediate followup and investigations.
    Across the Nation, a new smuggling of choice has been 
identified as parcel and vehicle traps. In 2003, this 
initiative merged with the Delivery System Parcel Interdiction 
Initiative to effect coordination and operational 
effectiveness.
    Our expected outputs for 2005 are to arrest 70 drug/firearm 
violators, seize $400,000 in assets, 100 kilograms of 
marijuana, 10 kilograms of cocaine, 1 kilogram of heroin, and 
two firearms.
    Our output, to date, the group has generated 20 arrests, 
seizing $175,000 in assets, three firearms, 19.9 kilograms of 
marijuana, and 1 kilogram of cocaine. They are also involved in 
two major case investigations.
    We have our DEA Heroin Task Force. This group has arrested 
three persons, seized $393,000 in moneys. We have our Weapons 
Enforcement Initiative. This group investigates armed violent 
drug trafficking organizations which impact the Baltimore 
Metropolitan Area. We utilize the ATF Disarm Program as its 
targeting mechanism.
    We have the Customs Baltimore Seaport Initiative. We have 
the Customs Money Laundering Initiative. We have a Customs 
Airport Group. All of these groups have measured targets. We 
are getting great results.
    Mr. Chairman, there are those that question the value of 
HIDTA. They simply have not taken the time to look at these 
measurable lifesaving results.
    I urge all of you to maintain an open mind and speak 
directly with the HIDTA directors and law enforcement 
professionals who dedicate their lives to just the kind of 
cases which Federal, State, and local law enforcement should be 
focusing on.
    I want to thank you for your time. I cut my testimony down. 
Our successes have been numerous, and thank you for listening 
to us.
    [The prepared statement of Mr. Hamm follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. We will put your full statement in, if you have 
other materials, also.
    Mr. Hamm. Thank you, sir.
    Mr. Souder. I want to make sure for the record that the 
charts over there get printed so we can get those into the 
record, as well.
    Our next witness is Mr. Mark Henry, president of the 
Illinois Drug Enforcement Officer's Association. Thank you for 
being here.

 STATEMENT OF MARK HENRY, PRESIDENT, ILLINOIS DRUG ENFORCEMENT 
                      OFFICERS ASSOCIATION

    Mr. Henry. Chairman Souder and distinguished panel, I thank 
you. Good afternoon, or I guess it is good evening now. I thank 
you for this opportunity to speak.
    First, I would like to say that while most of my comments 
will be directed toward the proposed elimination of Byrne/JAG 
grants and the impact in Illinois, I do want to go on record as 
saying that the Chicago HIDTA is a friend to multi-
jurisdictional task forces in Illinois, and we appreciate all 
that they do.
    My name is Mark Henry, and I have been a police officer in 
Illinois for 21 years. For 18 of those years, I have been 
involved in drug enforcement. In the vast majority of that 
time, I have been assigned to various multi-jurisdictional Drug 
Task Forces.
    In addition, I served as the administrator of two Drug Task 
Forces, so I understand the critical importance of the Byrne/
JAG Program.
    In 2001, I served as the chairman of the Illinois MEG and 
Task Force Commanders Association, which consists of 20-plus 
multi-jurisdictional Drug Task Forces, which cover 
approximately 73 of the 102 counties in Illinois. Once again, I 
had the opportunity to hear from all the various Drug 
Commanders about the importance of the Byrne/JAG Program.
    Currently, I serve as the president of the Illinois Drug 
Enforcement Officers Association. We have approximately 1,000 
members, consisting of Federal, State, and local officers, from 
all parts of Illinois. The IDEOA is 1 of 43 such State 
organizations throughout our Nation, and all of us are 
concerned about the proposed elimination of the JAG assistance 
grants.
    I am quite familiar with drug enforcement in Illinois, and 
specifically the role the Drug Task Forces play. I would like 
to explain that role.
    First there is DEA. They are a great partner in the 
strategy in Illinois. They assist lower law enforcement and 
Drug Task Forces whenever they can. However, DEA and the other 
Federal agencies focus much of their efforts on attacking the 
top levels of the drug pyramid, and rightfully so.
    At the same time, you have local police departments that 
are handling the lower level drug trafficking that is occurring 
in their communities. The gap which exists between the top and 
the bottom, that squarely falls on the shoulders of the Drug 
Task Forces in Illinois.
    In short, for most of the State, the Drug Task Forces are 
the backbone of drug enforcement in Illinois. In addition, 
these units have taken over the responsibility of investigating 
and dismantling methamphetamine labs in Illinois, which 
continues to increase.
    In 2004, the Drug Task Force's dismantled an excess of 960 
meth labs. Most local police departments do not have the 
training or resources to handle these labs.
    In Illinois, approximately 60 percent of police departments 
have less than 10 full-time officers. Combining resources and 
expertise is the only effective and efficient way to address 
Illinois drug problems.
    To ensure my message was accurate today, I would like to 
read some abbreviated replies from the Illinois Drug Commanders 
where they reference their thoughts on eliminating the Byrne/
JAG Program.
    The first quote is, ``The elimination of the Byrne/JAG 
Grant would have a catastrophic effect on the metropolitan 
enforcement group of Southwestern Illinois. The majority of the 
Board members indicated they would be forced to either withdraw 
from the unit or reduce their participation to that of 
financial contributor.''
    The next quote is Vermillion County MEG, ``Eliminating this 
funding would cut our number of agents by 62 percent. The 
elimination of this funding would be the beginning of the end 
of Vermillion County MEG.''
    The next quote is, ``The West Central Illinois Task Force 
is the primary if not the only deterrent of narcotic 
trafficking and enforcement in West Central Illinois. Without 
the Byrne Grant funding, this concept would be dissolved.''
    The next quote is, ``The Southeastern Illinois Drug Task 
Force will cease to exist within a year if the Byrne funds are 
eliminated.''
    The next quote is from the LaSalle Task Force. ``I strongly 
believe that the elimination of these funds would force the 
Task Force to close its doors.''
    The last quote is from Task Force 6. ``I look at this 
proposed Byrne/JAG cut as a closing down of a police department 
and the abandoning of our children and citizens.''
    In closing, the State and local police departments in 
Illinois are committed to the multi-jurisdictional principle, 
and dedicate many of their own limited resources to this 
ideology.
    The Byrne/JAG funding is the glue that brings hundreds of 
law enforcement agencies and their resources together to 
effectively and efficiently attack local drug trafficking, 
reduce violent crime, and promote safer communities. Without 
that glue, we will weaken our grip on this important issue, and 
negatively impact the quality of life for the citizens which we 
all serve in this great Nation in the State of Illinois.
    I thank you for your time and consideration with this 
critically important matter.
    [The prepared statement of Mr. Henry follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Thank you very much for your testimony. Our 
clean-up witness today is Sheriff Jack Merritt of Green County, 
MO. He has worked with Congressman Blunt, who certainly has 
been a crusader in the house on methamphetamine and is a leader 
in the meth area, as well as many other narcotics areas, along 
with your talent. We thank you for coming today. We look 
forward to your testimony.

        STATEMENT OF JACK L. MERRITT, GREENE COUNTY, MO

    Mr. Merritt. Thank you very much, Chairman Souder, Mr. 
Cummings, and Ms. Watson. I certainly am honored, and I do 
thank you for the opportunity to appear before this panel to 
express my concerns and what I believe are the concerns of many 
other agencies in the Midwest HIDTA with the current proposal 
to dramatically reduce the Federal support available to State 
and local enforcement.
    Probably my concerns have gone two-fold, after hearing the 
previous panel express their plan or lack of plans in 
facilitating this. It is of deep concern, and more than when I 
arrived.
    State and local law enforcement depend on the Byrne Grant 
and HIDTA Program and other Federal Programs to help us control 
crime. I understand that budgets are tight at all levels of 
Government, but I tell you, we in middle America have been 
extremely dependent on the invaluable assistance that we have 
received from the Federal Government through these programs. 
Such drastic reductions will cripple the enforcement 
capabilities of sheriffs and others in law enforcement.
    Mr. Chairman, I represent Greene County, which is the home 
of Congressman Blunt. It is the third largest county in the 
State, and I am blessed to have many resources that are 
unavailable to many of my neighboring sheriffs. But even so, I 
depend on the assistance I receive from Byrne and HIDTA. My 
ability to work Drug Task Forces, fight crime, and protect my 
constituents, all of our constituents, would be devastated if 
the proposed reductions were to be enacted into law.
    Complicating matters, the efforts of this proposal would be 
even worse for the other counties in my State, and I am sure 
that all 74 counties in the Midwest OUTDO would face similar 
adverse effects from the proposed cuts.
    As you know, HIDTA funding as currently set by Congress, as 
has been mentioned here today, is at $228 million for fiscal 
year 2005. This budget cut to $100 million, in the real world, 
effects of this drastic cut will mean that the current 28 HIDTA 
areas will be severely scaled back and, I believe, in many 
cases, eliminated.
    The elimination of HIDTA means that resources, cooperative 
agreements, active cases, and other critical drug control tools 
and techniques will cease to exist. That might be OK if the 
flow of drugs ceased, as well. However, we know that will not 
happen. As soon as enforcement stops, the drug dealers hit the 
streets with impunity and pollute our neighborhoods with their 
evil.
    With or without the Federal support, law enforcement still 
faces continuing threats from drug dealers and drug cartels. In 
the Midwest especially, we have a devastating methamphetamine 
problem. One of our greatest assets in the HIDTA program is the 
collaboration we have with Federal and local agencies.
    My 36 years as a city policeman, highway patrolman and now 
as Sheriff of Greene County has taught me the only hope for 
continued success in law enforcement is the cooperative spirit 
that is shared by not only the working elements of those 
agencies, but also the administrators of those agencies.
    Midwest HIDTA brings this concept, not only into the entire 
State of Missouri, but to the 74 counties in six States. As a 
criminal investigator for the Missouri State Highway Patrol, I 
have been involved in OCDETF cases, and certainly understand 
and appreciate the benefit of pursing cases in this program. 
But those cases resulted from investigations we made on the 
street, and then were pursued and prosecuted as OCDETF cases.
    The important fact here is that we need HIDTA to have the 
resources and the manpower to develop cases and then select 
those that meet the OCDETF criteria to further that 
investigation and prosecution. Without HIDTA, we lose that 
valuable asset that is so important to those of us that live 
and work in an area that is becoming completely saturated with 
methamphetamine manufacturing and trafficking.
    That is to say that the first line of defense against 
illegal drugs is by having investigators continuing their 
investigations at a local level in a unified way as is 
currently done with our Federal Drug Task Force through the 
local Drug Enforcement Administration office.
    This DTF goes beyond the investigation of our local meth 
cooks. One of the significant contributions is that of pursuing 
the drug interdiction cases that are made in the ``drug 
pipeline'' that crosses Missouri via Interstates 44 and 70. 
Certainly, many cases developed through this process reach the 
realm of national and international proportions and OCDETF 
criteria.
    Again, this is an enforcement concept that would be lost 
without our support from HIDTA. I believe that many U.S. 
attorneys in the Midwest, if you inquired of them, would 
express some of the same concerns that State and local law 
enforcement agencies have concerning these proposed cuts. I 
assume, from earlier testimony, they were not consulted, and 
did not have a part in this decision.
    I realize that DOJ may have a differing opinion of the 
necessity of the HIDTA program, but I do believe that if they 
would look at the success and benefit of Midwest HIDTA to Mid-
America, it would affect their justification to reduce HIDTA 
funding and increasing that of OCDETF.
    I hate to repeat myself, but the loss of HIDTA funding 
would be devastating to Mid-America. I would also like to 
express my concerns with the loss of funding to the Byrne 
Grants as this, too, is something that local law enforcement 
agencies have become so dependent upon.
    In the recent past, we have seen new sheriffs coming into 
office that are trying to bring new technology and updated 
equipment into their departments, allowing them to provide a 
full-service police agency to serve their constituents. Without 
the benefit of grant funds, many of us would not be able to do 
this.
    In my situation, local resources alone cannot resolve these 
problems. Every day, we confront pushers and meth cooks from 
our own communities that buy or steal massive quantities of 
pseudo-ephedrine to distill into meth.
    Also, recently, across the Midwest, we have seen an 
increase of thefts from anhydrous ammonia tanks on farms. These 
``cooks'' try to steal this fertilizer to make their poison.
    Compounding that situation, we also must confront 
international traffickers as drugs and precursor chemicals make 
their way from Mexico, traveling our highways across the 
Midwest to eventually poison our youth.
    As law enforcement leaders, we must find new and innovative 
ways of dealing with this growing problem. Moreover, meth is 
not our only challenge. Gateway drugs such as marijuana are 
prevalent among our teenagers. In fact, the problem is so 
widespread that OCDETF has engaged sheriffs and chiefs across 
the country to focus on them combatting marijuana use.
    How can we consider reducing the Federal support of HIDTA 
with all of this work left undone? It is my view, it is a 
national model that should be expanded and not cut back.
    Thank you all very much for your time.
    [The prepared statement of Mr. Merritt follows:]
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    [GRAPHIC] [TIFF OMITTED]     
    Mr. Souder. Thank you for your testimony. This is a great 
panel. I want to ask a more general question, just to make 
sure, to reinforce something that I asked of the first panel.
    This is an extraordinary panel. Mr. Brooks is from 
California. You head the National Police Narcotics Association, 
and you have worked in California for many years.
    Mr. Carr is head of the HIDTA Association in the United 
States. Mr. Donahue heads the HIDTA in the speaker's home 
district in one of our biggest cities in the United States. 
Commissioner Hamm is a direct front line person from one of the 
hardest hit cities in the United States, on the East Coast.
    Chief Harris is Vice Chair of the Southwest Border HIDTA, 
which everybody in Congress agrees is the toughest area and 
where most of our drugs are coming across the southwest border. 
Phoenix stands right in the middle of the run in a very 
critical area.
    Mr. Henry has done a thorough job of surveying the 
speaker's home State, in looking at both the Byrne and the 
HIDTA grants. Sheriff Merritt is our Majority Whip's home 
sheriff in one of the meth hot zones in the Nation. Nobody 
disagrees that in Arizona, Arkansas, and Missouri, they are 
probably the hardest hit meth area in the United States.
    As head of these different associations, in even our 
leadership home districts, did any of you get consulted before 
this kind of bomb hit us? Maybe we can go in reverse; Sheriff 
Merritt?
    Mr. Merritt. No, sir, when I found out about it, it was 
when we were in a panic about it. It had reached that point 
where it was a very strong consideration that was going to 
happen, and I am on the State Board for HIDTA in Missouri.
    Mr. Souder. Mr. Henry.
    Mr. Henry. No, sir.
    Mr. Souder. Mr. Harris.
    Mr. Harris. No, sir.
    Mr. Souder. Commissioner Hamm.
    Mr. Hamm. I was not consulted.
    Mr. Souder. Mr. Donahue.
    Mr. Donahue. No, sir, and I can also say that select 
members of OCDETF, the State and local office were not 
consulted.
    Mr. Souder. Mr. Brooks.
    Mr. Brooks. Yes, we have checked with all of our member 
State associations. No one was consulted, to our knowledge. Not 
only that, when we learned, through leaks within OCDETF of 
these proposed cuts, I called Marc Wheat on your staff, Eric 
Akers on Senator Grassley's staff and others that we work with 
all the time, very concerned and learned that they were unaware 
of these proposed cuts.
    So not only as the President of a 60,000 member 
organization, but as a citizen, I am very concerned that they 
would take away a very effective law enforcement tool without 
talking to the people here in the Congress that help build that 
tool, and out on the streets where we apply the tool.
    Mr. Souder. We need to look at this, in trying to get 
lemonade out of a lemon, that as an opportunity to do some 
education, this is an opportunity to educate each Member of 
Congress, many of whom have not visited the HIDTAs in their 
home area or exactly understand how the Byrne Grant works.
    They understand they see meth on the news, or they see 
different challenges. But this is an opportunity to educate and 
to do surveys in your area and to get this in so that we can 
help do this, like Mr. Cummings said earlier.
    It does not do us any good to have a hearing. We have to 
figure out how to get the word out. But it is clear here that 
we have the talking at the grassroots. It is getting back to 
Members. Mr. Cummings is hearing it. I raised it in our 
conference, and many Members are very concerned about getting 
blindsided about something like this. This is an opportunity to 
educate with this.
    I am ideologically disturbed, as a Republican, that one of 
our philosophies has been to try to do more State and local 
cooperation, rather than nationalize everything. I just cannot 
believe we would destroy the program. On tinkering with it, I 
am going to ask a followup question. Maybe, Mr. Carr, you would 
be the best person.
    Could you describe this a little bit and for the record? In 
other words, we put a certain amount of funds into a HIDTA. But 
then State and locals make an investment. A number of you said 
in your testimony that people would have to pull out if you did 
not get some of the funds. You might participate financially, 
but not be able to send officers in. Chief Harris said directly 
in Phoenix that you have cut other areas, but you did not cut 
this area.
    But this is a tough decision in each of the department's 
budgets. Even small amounts of leveraging could have a 
devastating impact. Also, Mr. Carr, and if anybody else wants 
to take this, what I raised and you have heard me raise it 
repeatedly, there is this 50/50 question. How important is it 
when all of you at the local level make decisions to put 
dollars into a Task Force that you feel you have participatory 
and not domineered kind of input, especially given the fact 
that many of you raised concerns about OCDETF?
    I had a feeling that some of that might be that you felt it 
was more top down rather than shared. To some degree, he who 
pays the piper picks the tune. The question is, how much is 
local law enforcement putting in, what is the relationship, and 
if you put the dollars in but do not have any authority, how 
will you behave? Maybe we can start with Mr. Carr.
    Mr. Carr. Mr. Chairman, I would be glad to answer that. 
First of all, I used to sit on the OCDETF Board when I was the 
chief of narcotics for Mountain State Police. I stopped going 
to the meetings, not because I was dis-interested, but because 
I did not have a voice. I simply sat and listened to cases that 
they were reviewing.
    It is a paper pushing scheme, whereby they approve funding, 
and they fund officers to go out. They are already 
investigating. They approve funds to pay for their overtime 
allowance.
    I did not see that it was targeted, at least at that point; 
and many of the cases that I was hearing were cases that were 
brought to the panel by my narcotics officers. So they were my 
cases I was hearing reviewed at the Federal level for funding.
    But at the HIDTA, it is completely different. We are 
comprised of an Executive Board that determines the strategy, 
the funding levels, the focus, for the dollars to come in. It 
is a shared responsibility with the Federal, State, and local 
police.
    Our HIDTA is a little bit unique, because we also have 
treatment and prevention folks that sit on our Board. Now they 
do not entertain or hear cases, but they determine the 
strategy, how much money, how many programs go to Baltimore 
versus D.C., versus northern Virginia.
    They make a constant effort to focus the dollars on where 
the problem is, as opposed to, and I think it was somewhat 
insinuated in the earlier testimony, of spreading it over nine 
regions or spreading it over an area. They focus the dollars 
where they need to be focused.
    State and locals, and I believe I brought it up in my 
testimony and others mentioned it here, as well, get a few 
HIDTA dollars in return for the commitment they make.
    Now as a HIDTA Director, I always like to say, my job is to 
take away all the excuses. By that, I mean, we use HIDTA funds 
to provide you with allowance for cars, for State and locals. 
We pay for a limited amount of overtime. We pay for bi-money. 
We train officers. By the way, our HIDTA trained 2,000 officers 
last year, Federal, State, and local. So we do not just use the 
dollars for State and local officers.
    But by having this type of equality on our Board and 
focusing what we are doing, we have been able to generate very 
positive results. We have built teamwork. Most of the decisions 
on our Executive Board, and in fact, I cannot recall any that 
were not, are unanimous decisions. That is how well it works 
together after 11 years.
    Now in the first couple of years, I can tell you, they were 
not unanimous decisions, and there was probably some 
headbutting. But now the people understand the strategy. They 
are comfortable. They have a voice. They get Federal, State, 
and local law enforcement, treatment, and prevention folks 
working together.
    If I recall, a few years ago, there was a movement to take 
treatment and prevention out of our HIDTA. The first people to 
stand up and shout to the mountains were the Chiefs of Police, 
who said, we cannot do this alone. We need treatment and 
prevention.
    So that is how well it works, and it is completely 
different than the dictatorial process that I have seen in 
OCDETF.
    Mr. Souder. Yes, Mr. Donahue?
    Mr. Donahue. Yes, Mr. Chairman, regarding the State and 
local investment, this is the greatest thing for the Federal 
tax dollar that I have ever seen.
    In the Chicago HIDTA, there are approximately 70 Federal 
agents who are assigned to the Chicago HIDTA from all of the 
Federal agencies. There are over 340 State and local police 
officers who work on regular basis with the HIDTA, not to 
mention the fact that they come from a body of over 16,000 
State and local officers who interact with their own 
departments and HIDTA. This investment by the Federal 
Government is absolutely minimal for what they get in return.
    As far as OCDETF is concerned, OCDETF's problem is that it 
is not a program that necessarily addresses the threat as it 
appears in the regions that we come from. OCDETF is a case 
specific support organization that pays for overtime for State 
and local police officers.
    The majority of the cases that come to OCDETF come from 
State and local police officers; and in Chicago, a good portion 
of those come from the HIDTA. The HIDTA, itself, is divided by 
eight State and local members on a Board, and eight Federal, 
thus giving them an even playing field; and thus, giving them 
something that they do not have in OCDETF, and that is a say in 
how those cases are managed and how they are prosecuted.
    Mr. Souder. Mr. Hamm and then Mr. Brooks.
    Mr. Hamm. Mr. Chairman, thank you very much; I do not have 
any money in my city. What I do have are dedicated detectives 
who work very closely with HIDTA, to the tune of about 54. Now 
some people may say that may be an excessive amount.
    But for the bang for the buck that I am getting, it is well 
worth my while to have my men and women working in this 
capacity. Because we are working drugs not only in Baltimore 
City, but in Baltimore County and Hartford County and 
Montgomery County, and all that stuff is related.
    All these guys are related. It is related stuff. What is 
going on, most of the guys who are selling drugs in Baltimore 
City live in Baltimore County. They live in Baltimore County, 
so there is a connect there. I have made it my business that we 
are going to address violent crime in Baltimore City.
    Drugs drive about 60 percent of the violence in my town. So 
it is the best investment that I can have, on a local level, 
having the resources and the money we have. I want to thank Tom 
and his people for allowing us to participate.
    Mr. Brooks. Mr. Chairman, sometimes there is this 
perception, not by this committee, because you deal with these 
issues, but by many in the Congress and others that HIDTA and 
Byrne are somehow funding law enforcement officers, that it is 
an entitlement program, that it supplants; when in reality, the 
officers assigned to HIDTA, with very, very few exceptions, and 
almost exclusively with the Byrne Task Forces, those are 
officers paid for by their own agencies, out of their own 
pockets.
    I know, just on the California meth problem, we looked one 
time at the money we got from meth hot spots. Then we looked at 
how much money we spent from a State and local perspective. We 
got $3 million out of the meth hot spots grant. We spent $160 
million of State and local money on meth enforcement.
    That, I think, is the experience across the board at HIDTA 
and Byrne; that agencies want to put their personnel there. The 
limited HIDTA dollars and the limited Byrne dollars give them 
the ability to have a facility to co-locate; maybe to help 
offset some vehicles or overtime or some communications or 
inter-operability issues.
    But those agencies are truly making the commitment by 
putting their people there, paying their overtime, paying their 
salaries and their benefit packages, taking those people out of 
other assignments and putting them in drug enforcement. So it 
is truly the best leverage of Federal dollars, anywhere in law 
enforcement.
    Mr. Souder. If Chief Harris and Sheriff Merritt could 
comment on this briefly, too; and if Mr. Henry does on the 
Byrne Grant, then I will yield.
    But what I am hearing here is that the funding is the kind 
of glue that helps pay the combined overhead, the phones, and 
so on. But the actual objects that are being glued together are 
your dollars. If we take the glue away and it falls apart and 
they have no plan, how do you have these Task Forces?
    Mr. Harris. Yes, Mr. Chairman, that is absolutely correct. 
The HIDTA Center that we have, that has over 300 people 
assigned to it, we have those people in there. But the HIDTA 
funds are what pays for the facility, to keep that place up and 
running; all the things that you talked about, whether it is 
cars, etc.
    We do appreciate OCDETF's current cooperations with working 
with the agencies that when we apply for OCDETF funding for a 
target that they approve of, that we receiving overtime funding 
to cover the overtime of the officers that are actually 
conducting the investigation.
    But what everyone is saying here is absolutely correct. 
Without that funding that holds everything together, we cannot 
afford to continue the operation and to put all of those bodies 
into these Task Forces in these programs with no return on 
that.
    As was stated earlier, we are 130 miles or so from the 
border with Mexico. If you look at where all of the drugs are 
coming from, South America through Mexico, they are coming into 
Arizona and the Southwest Border for distribution all over the 
rest of the country.
    When we target these people, it is great to say only target 
Federal bad guys. The local bad guys are the Federal bad guys, 
especially in our case, where we are tying violent crimes, 
homicides, coyotes smuggling humans across the border, drugs, 
home invasions, murders; it is all tied together. Those targets 
develop into the Federal targets.
    But to take all of that local input out and say it has to 
be a Federal or a national target before you can get any 
funding, it is just not going to work.
    Mr. Souder. Mr. Henry.
    Mr. Henry. I have a couple of things. In Illinois, the 
local Drug Task Forces, really are dealing with the issues of 
local concern. They all have policy boards. Everyone who gives 
an officer money has an equal vote. They really look at what is 
going on within the community, and they attack those local drug 
dealers. The local drug dealer that is on your corner, the Drug 
Task Force is the one that takes them out.
    The drug dealers dealing in the area, they are the ones 
that do that. We also have a network with these 20 Drug Task 
Forces in Illinois where the bad guys, the drug dealers, they 
do not know jurisdictional boundaries. They deal dope anywhere 
and everywhere they can sell it.
    So now we have a network of law enforcement personnel 
specialized in narcotics that can work with each other, 
communicate, work investigations together on a local level, 
attack the problems that really deal with quality of life 
issues. We are very efficient and effective in what we do.
    That money is the glue that brings it all together. The 
locals in the State are putting their own resources into it, 
but that extra money is what brings it all together.
    If that money goes away, some of these units are going to 
disband. They will become smaller. There will not be that 
connection. There will be pieces of the puzzle that are 
missing, and there will not be that ability to inter-connect 
with each other and be as efficient and as effective as we are 
right now.
    Mr. Souder. Sheriff Merritt, maybe you could also say what 
your HIDTA is; a newer HIDTA, formed a lot because of the meth 
issue. How has it changed with the HIDTA, and maybe you can 
talk about that connection?
    Mr. Merritt. Well, just the resources to deal with the 
disposing of the chemicals and everything. The State of 
Missouri, I think, had about 3,000 labs last year, and a good 
deal of those in our county, there. It was a few-100 in our 
county. So it is an extremely critical thing.
    Now I think of the problems that are related in these 
others agencies, much larger agencies, and I think maybe we 
have it pretty lucky. But proportionately, with what we have to 
spend, with the manpower, the resources we have, I contribute 
two officers to a Drug Task Force other than the HIDTA and the 
DEA Task Force. Without the Byrne Grants, that would not exist. 
Without the HIDTA money, my participation in the DEA Drug Task 
Force would not exist.
    I see these people sit down once a month around a table 
about this size. Every agency is represented. They know what is 
going on. They refer to the deconfliction. They sit there and 
talk about it. We share offices, and that type of thing.
    This brings agencies together that might not otherwise be 
together. If they are together in the drug enforcement, when a 
drug-related homicide happens, they are together on that. It 
brings our agencies as one.
    You can watch them working an investigation of a case of 
any type, and it is hard to tell who belongs to who, for us as 
Administrators. That is as it should be, because they are 
working as one. It is a tremendous asset, and well worth what 
goes into it for our area, for just that collaboration between 
agencies, because you do not always have that every place. So 
it is tremendous to see that.
    Without this funding, we are pretty well sunk on that. I 
know our meth labs are not going to go away and, as Mr. 
Cummings referred to earlier, that they are going to know it. 
You know, I have a 500 bed jail. I would say a very 
conservative estimate of 80 to 85 percent of my inmates are 
meth-related.
    The tentacles go from the cost of that, beyond the 
investigations, beyond what it takes to get them to jail, with 
the meth mouth. Their teeth are falling out. I have to have 
extra dental. The medical cost of mine, I spent over $1 million 
last year on medical costs for the jail there. I provide a 
counseling program to try to do something about it.
    If I can just touch on one thing. I had a group from the 
Fellowship of Christian Athletes touring the other night that I 
took them through personally. As we were in the visitation 
area, there was a beautiful little 18 month old, and a 2-year 
old girl with blonde curly hair, with her face against the 
glass, looking down the hall to see her daddy come and visit 
her.
    This culture is taking over. If we do anything to take away 
from the effectiveness of enforcement, that little girl is 
going to be coming down the hall with her little girl looking 
for her.
    Mr. Souder. I am just overwhelmed. I am so baffled that we 
worked so long to get cooperation, and then in one short, we 
are busted. I just do not understand. Mr. Cummings.
    Mr. Cummings. I only have a few questions. First of all, I 
want to thank you all. Since I have been on this subcommittee, 
which has been about 9 years, this is one of the best 
presentations I have heard.
    But I wanted to be very careful here, because I always try 
to figure out what would somebody listening to us have to argue 
against what you have said. Let me tell you what they would 
say, and then I want you to address this.
    The reason why I am doing this is because I think it is 
important that you know how the folk think around here. On 
Capitol Hill, we deal with a lot of turf situations. Maybe 
these folks just want to hold on to their turf. They have it 
already carved out, and they do not want anything disrupting 
what they are doing.
    I know that is how folks think. I wish that the folks who 
testified before could have heard this. I wish they had heard. 
I was trying to speak for you all, by the way, when I was 
addressing my questions to them, because I had a pretty good 
idea of what you would say.
    But one of the things, I guess, that has really hit me is 
that from listening to what you all are saying, OCDETF is not a 
real law enforcement kind of entity. I mean, in other words, it 
is out there really fighting crime, but maybe managing some 
dollars and things like that.
    It is not that they are not important. But on the other 
hand, when you all deal with the HIDTA's and you deal with 
ONDCP, you feel a lot more comfortable. Is that a fair 
statement; yes, sir?
    Mr. Donahue. OCDETF is an important part of this, but it is 
not the part that has to do with the active every day law 
enforcement. OCDETF is a prosecution support system.
    The reason that OCDETF is important to the HIDTAs is 
because it takes the cases into the realm of Federal 
conspiracies. When you get into the realm of Federal 
conspiracies, you have a huge hammer over the drug dealer.
    Mr. Cummings. Right.
    Mr. Donahue. As far as the turf is concerned, I am not 
trying to keep my turf. I am trying to increase it.
    In 1992, there were 2,200 heroine overdoes in the city of 
Chicago. In the year 2,000, there were 12,254. Where was the 
Federal Government during that 8 year period? It is the HIDTA 
that has addressed the heroine problem in the city of Chicago.
    Now Chicago is not unique, as major cities go, but they do 
have a problem that most major cities do not have. We have 65 
active gangs in the city of Chicago, of which there are 65,000 
members. They handle 98 percent of the distribution of the 
drugs in our city and in our region.
    Now maybe we are hurting ourselves by calling these people 
members of street gangs, because there are organized crime. 
This is not the Jets and the Sharks from West Side Story. These 
are hardened, organized criminal gangs. So I do not want to 
keep my turf. I want to double it or triple it, and I need 
these Federal dollars to do that.
    Mr. Cummings. Well, you gave the answer that I was hoping 
for. I hope the President is listening to what you are saying, 
Mr. Carr.
    Mr. Carr. I just want to add that I did not want to malign 
OCDETF.
    Mr. Cummings. And I do not want you to. I guess what I am 
trying to get to is your basic concerns. Because actually, what 
we are being asked to do is make a major shift. So if you are 
doing this major shift, like the chairman said, you ought to 
have at least some evidence to show that you are going to do 
something that is better and much more effective and efficient, 
as you said.
    Mr. Carr. I think we are all perplexed by this. We had no 
warning. It seems to me the administration is pushing, as the 
chairman mentioned. They are Federalizing this problem, when it 
is not totally a Federal problem. It is a State and local 
problem, as well.
    It seems to me that they are abandoning the domestic drug 
enforcement that we have now in this country, and that we 
worked so hard to do; and that is, as you have pointed out, to 
create this partnership between Federal, State, and local.
    You brought up an interesting word, ``turfism.'' Let me 
turn it a different way. The turfism I think of, are the 
turfisms of the gangs like MS-13, and the turfisms of the drug 
dealers that are operating in Baltimore, Washington, DC, and 
northern Virginia, that I am very much aware of, and the 
conflict that is going on between them.
    So, yes, we want to reduce turfism, because it is reducing 
violence, reducing drug trafficking and the like. I think the 
Commissioner can comment on that; thank you.
    Mr. Hamm. Mr. Chairman, Mr. Cummings, I do not care about 
turf. I care about what works. What we do now works. That is 
all I care about. We have a systematic way, and systematic 
tactics of taking violent, drug-dealing people off the street, 
and it works. So I do not care about turf. I care about what 
works, and I have talked about some of the results already. If 
you check the testimony, you will see. That is my concern; not 
turf, results.
    Mr. Souder. Mr. Brooks.
    Mr. Brooks. Relative to those, the one thing that most 
people, I think, fail to understand is that more than 90 
percent of the OCDETF budget just pays for Federal employees. 
It pays for FTEs for the FBI, the U.S. attorney's office, the 
marshalls, and others.
    There is a misconception that there is an OCDETF Task Force 
out there somewhere. But really, there are just nine regions 
with coordinators that sit around a table, and they decide what 
cases they will fund for prosecution. But there are no, like, 
HIDTA Task Forces, or Byrne Task Forces. There is no brick and 
mortar building where law enforcement officers area co-located 
and where they go out and work investigations.
    OCDETF is owned by the U.S. attorney's office. If HIDTA 
goes to OCDETF, it will be just another Federal program without 
the kind of partnership and ownership that local law 
enforcement has built with the HIDTA. So that is my concern; 
that OCDETF does not even know what it is we really do, because 
they do not run Drug Task Forces. They have not been in the 
multi-jurisdictional enforcement business, like we have.
    So Byrne and HIDTA are absolutely critical to keep those 
State, Federal, and local law enforcement officers at the 
table. They asked me, and I got interviewed on this issue on 
NPR radio. They said, what is the single most important aspect 
of HIDTA.
    I said, the most important aspect of HIDTA, and it is with 
Byrne, as well, is that today we have a ton of disparate 
agencies that would have never been at the table talking before 
Federal, State, and local that would never shared information; 
would not have deconflicted their cases; would not have shared 
their resources.
    We have them all now jumping up saying, no, no, let me help 
you with that. I have a couple of extra cars that I could give 
you. We could use our radios. We could kick some more money 
into that case. Those people are all now at the table, sharing 
information, embracing one and other's organizational cultures, 
working together willingly, because we brought them together, 
using the incentive of Federal money.
    Mr. Cummings. Well, you just hit on where I was trying to 
go to. I am not a police officer. But I would assume that there 
is somewhat of a brotherhood and sisterhood going on there.
    I am just wondering, you were just talking about people 
coming together. I am just guessing, if I am on the Federal 
level and I am fighting drugs, and I am on the State or local 
level, and I have an opportunity to work, and we are all 
working toward the same thing, are relationships established 
there? You do not even see it in the paperwork. You just know 
that folks get to know each other, and they talk about the 
intuition of police officers.
    It is amazing this situation up in Chicago. I do not listen 
to the news very carefully, but I do know some officers 
apparently stopped the guy. I do not know whether it was 
intuition or not.
    But my point is, I guess there is something that happens, 
too, that you cannot even put a monetary value on it. You may 
not even be able to adequately describe it. When folks come 
together who have a common mission, no matter what agency they 
are in, because they know that they all are in the same boat, 
trying to deal with the same kind of thing.
    Is that very significant here with regard to HIDTA? Yes, 
sir; you have not spoken yet.
    Mr. Merritt. Yes, sir, as I mentioned earlier, we watch our 
people work. They work as one. You do not know who is a Federal 
agent, and who is county, and who is city police.
    You know, there are certain philosophical differences on 
whether crime control is a local Government or a Federal 
Government issue, and I think that September 11th took that 
out. It is irrelevant now.
    The question is not of dependency upon the Federal 
Government to fund local responsibilities. But it is, will the 
Federal Government help local agencies meet the demands of 
crime control and Homeland Security? Because truly, as I 
believe you mentioned in the first panel, this internal 
terrorism gnaws at us, and there is probably no greater threat 
to our society than drugs.
    Mr. Cummings. Yes, sir?
    Mr. Donahue. I am going to date myself with this. But back 
in 1972, I was assigned to probably the first Federal Drug Task 
Force in this country. It was in 50 cities across the country, 
and it put State and locals together for the first time.
    You talked about the relationships that develop amongst 
people who worked together. After 33 years, I have friends from 
that Task Force. As a result of my experience on that Task 
Force, I was able to work cases as a narcotics investigator 
when I was sent back to the Police Department; because after 14 
months, the Federal Government turned that Task Force out.
    What we had built up was gone, except for the relationships 
that stayed between the officers and agents who were in that 
program.
    It withered and it died, and Congress had to come back 
again, 16 years later, to do the same thing. The result of that 
is HIDTA. So the answer to your question is yes, the 
relationships become institionalized, and that is what makes 
the investigations better.
    Mr. Cummings. I have just one last thing. I have often said 
that the people who are on the front line are the best 
witnesses. In other words, you all know how you are affected. 
So I would just suggest that you will let your Congress people 
know, and I am sure you are already doing this. This is 
important stuff.
    Because I do not think there is one single Congressman that 
wants to be in a situation where they believe they are doing 
something, and I do not think the President wants to be in this 
situation, by the way, doing something that actually goes 
counter.
    Because in listening to you all, it seems to be a concern 
that you might go backward. I do not want 16 years to back the 
other way, because in the midst of that 16 years, a lot of 
people are going to die, a lot of problems are going to happen, 
and there is going to be a lot of pain.
    But the other thing that, I guess, I want you to talk 
about, and maybe one of two of you are can talk about it, you 
mentioned the term ``deconfliction.''
    Just for our purposes, would you all tell us what is the 
significance of deconfliction, just if you do not mind? Keep in 
mind, there are people on C-SPAN watching this, too, and that 
is a term that they would like to know.
    Mr. Carr. I also work at the University of Maryland, as you 
know, and deconfliction is not a real word. But as a 
university, you can make up words, so we did. But I think the 
word explains what it is.
    In other words, there are two types of conflicts that we 
are very much concerned about. One is when police agencies are 
conducting high risk operations at the same place or around the 
same place in time, and they do not know it; where you are 
confronting good guy and good guy. I have had a gun pulled on 
me by another police officer years ago in a raid like that. It 
is not a pleasant feeling.
    So that is one of the ways we deal with it, in that we have 
police agencies call our intelligence centers. They let us know 
when they are going to do an operation.
    Because we are in D.C., several years ago, Mrs. Clinton was 
Christmas shopping. She was taken to a mall in this area where 
we were doing it by bus, so I am told. As a result of that, the 
Secret Service deconflicts with us in our center now. So those 
things can be very real.
    The other type of deconflicting involves cases where I am 
working a target and you are working a target, and it is the 
same target, and we do not realize that.
    Early on in our HIDTA, we had two of our initiatives not do 
a case deconfliction. I turned out, one of them was selling 
drugs to the other in an undercover operation. The only way 
they found out was that they were from the same Police 
Department, and they happened to meet and say, what are you 
doing here; and the other one said, well, I am selling drugs. 
The other says, I am buying drugs. [Laughter.]
    So those are real incidents. That is the officers' safety, 
their resource incidents, and those are the two types of 
deconfliction.
    Mr. Cummings. Well, that is a good example. Thank you very 
much. I think that, you know, I would imagine that those people 
who might be the salespersons of drugs that may be listening to 
all of this, probably the last thing they want is to see you 
all continue to do what you have been doing, deconflicting and 
deal all these other things.
    I would imagine that they would just love to know that they 
can do certain things and, like you said, Commissioner Hamm, 
they have no boundaries.
    By the way, Mr. Chairman, Commissioner Hamm was talking 
about Baltimore City and Baltimore County. Baltimore City is 
surrounded by Baltimore County, like a doughnut, like we are 
right in the middle. So, therefore, we have all these 
salespersons living outside, but right in the middle is where 
they do their dirt.
    So I guess that communication thing is so very, very 
important. Again, I want to thank all of you for your 
testimony; I really do. I hope that when you get back to the 
men and women who put their lives on the line every day, I hope 
that you will let them know that we want to do everything in 
our power to support them. Again, we thank you very much.
    Mr. Souder. Thank you. Ms. Watson.
    Ms. Watson. I sincerely want to thank the Chair for 
bringing this panel together, as well. I am amazed that those 
of you who are on the front line were not consulted. I also 
understand that the word went out to cut the budget.
    But to cut it in such highly sensitive areas of law 
enforcement is the wrong cut to make. We are facing, in this 
country, an overwhelming threat of terrorism, and our terrorism 
is coming from the streets and the drugs that somehow get into 
the hands of our youth and our violent criminals.
    I do not know how they come here. They are smuggled in 
because we lack the personnel to be able to detect. We lack the 
intelligence to know how they are bringing it in. We woke up 1 
day in the seventies, and I was telling everybody and I was on 
the school board then, oh, the community does not deal with 
crack cocaine. They cannot afford it. All of a sudden, everyone 
was selling the packages for $20, those plastic packages, 
including mothers on welfare.
    So I have been on it ever since then, and we still have not 
cracked it. So if you were not contacted that there was a 
proposed cut and reorganization, then Mr. Chairman and Members, 
I think we ought to turn this down and we ought to send the 
message right now that we will not accept this change.
    Right in the middle of success, and I am sorry the other 
panel is not here, because they did express in front of all of 
you that they had not seen positive results. That is because 
they had not talked to you. You know, they had not asked you to 
give them all of your records that you collect in a year's time 
or 6 months' time. I can see why they would say that, because 
the communication has broken down; yes, sir?
    Mr. Carr. If you will allow me, real quickly, I just wanted 
to comment on that. When the PART survey was done originally in 
2004, the folks from OMB did not get the outcomes and outputs 
from the HIDTA program. They got budget summaries and anecdotal 
information to look at.
    So they did not even give them the information that would 
allow them to say whether or not we were successful. That is 
what really started the process of us developing our own 
performance management system.
    Ms. Watson. I would imagine that these decisions were made 
in a little room, you know, amongst themselves, without 
reaching out to you. I would say to defund you and reorganize 
you would cause what you have been doing to fail, and would 
probably jeopardize a lot of people out there who have been 
undercover. You would have to pull them out and then they show 
up in another outfit, a uniform or something, and they get 
marked.
    I mean, I know how that game is played in my city. So I 
want to thank all of you, you came here and do not be afraid to 
speak out, stand strong, support your programs' continuation 
and the funding. We will work with you, I hope, here in the 
House and certainly in the Senate to see that your funding 
continues.
    Because we have an overwhelming task, all of us do, to get 
after this scourge in our streets. To stop you while you are 
doing that does not make sense. It is not going to save money. 
It is going to create expenditures in other areas. We are going 
to have to pay more for hospitalization and for survivors of 
people who have been killed on the street and incarceration and 
so on.
    So I want to just end it by saying I am behind your program 
and these funds 100 percent. Leave the program as it is. Make 
cuts in other areas, but not in this crime-stopping component.
    The Justice Department, if they came and made the 
statements that they did and those statements, they believe, 
are true, then I know they have not been in communication with 
you. I mean, you did not have to tell us that. Because they 
would not have made those statements.
    If they had gotten out into your regions and observed what 
was going on, and reviewed what was going on, then they would 
have to argue against the kind of changes that you propose.
    So with that, Mr. Chairman, I want to thank you. It has 
been an afternoon well spent. I have to rush to catch my plane 
to go back to the streets of Los Angeles, and watch my drug 
dealers, you know, dealing on the streets. I mean, I see it, 
because I am on those streets every day, and they do it with 
impunity. So thank you very much, and I thank all of you for 
your contributions this afternoon.
    Mr. Souder. Thank you, Congresswoman Watson; for those who 
say we cannot do things in a bipartisan way, when we fight drug 
dealers and we fight narcotics, we need to fight in a 
bipartisan way. We did not ask who was Republican or Democrat. 
Up here, it would have been tough to figure out who was and who 
was not.
    Ms. Watson. We need policymakers.
    Mr. Souder. Yes, we need to tackle this. We would 
appreciate if you could communicate back to your grassroots 
people. They are putting their life on the line to try to keep 
the rest of America safe. We very much appreciate that, because 
it is a few people who then addict other people, spread this 
through.
    It gets into their families and their kids. It puts people 
at harm when they are shopping. They cannot walk at night on 
the street. There is a fear to travel or move around that leads 
to the housing decline, education in school declines. At least 
drug and alcohol abuse is the enabler that creates much of this 
problem.
    So we thank you very much for your efforts. We need to look 
at this. If we speak out united, and if we can educate the 
public more on what is happening, one of the problems in 
narcotics that people get very frustrated, because it seems 
like it does not go away. It is just like child abuse, just 
like spouse abuse. It is just like many other things. It just 
seems like you work at it and you work at it. But the second 
you back off, it gets worse.
    This is an opportunity to educate, to educate Congress and 
to educate the general public, and say, basically, to the 
administration: Look, this is working. We do not know why you 
did this. But send a clear message from the grassroots level in 
the Congress: we will do a good job of testing the wind and 
react real fast, and make sure that we send a message, which is 
a lesson, not only for this year; but this is a program that 
works, and we ought to be looking at how to make it more 
effective; how to spread it.
    Yes, if there are things like drug courts that need to be 
added, then propose adding that. But do not wreck another 
program in order to try to address another kind of problem.
    This has been a terrific panel. Thank you for all the time 
that you have spent. We appreciate you coming to Washington and 
being part of this, and we will make sure that the word gets 
out, and will you please help get it out to your own individual 
members and back home.
    Because this is a big decision, a key crossroads, that 
could affect, again, because we have done this before. As Mr. 
Donahue said, in narcotics, sometimes we tackle it. If we start 
to have success, we give it up and we have to do it all over 
again.
    Now we finally have an integrated system that is probably 
the most integrated, helping us to work with the Homeland 
Security agencies that we are seeing internationally. We are 
better able to track. We are not just going to arrest people on 
the street. We are going to be able to get to the systems.
    But if you cannot turn witnesses, if you cannot follow it 
through, hey, the whole system falls apart. What good does it 
do to go down and eradicate cocaine in Columbia, and try to 
intercept it, if we cannot also work it back the other 
direction?
    Ultimately, it is the ones on the street who are killing 
the people, and you have to stop them. Because, in effect, if 
we fail in the eradication, if we fail in the interdiction, if 
we fail at the border, then it is in your towns.
    We cannot abandon the towns, just because we have not been 
able to stop it; back in Colombia, or Afghanistan, or 
elsewhere. So thank you very much for your willingness to 
participate. With that, the subcommittee stands adjourned.
    [Whereupon, at 6:25 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
[GRAPHIC] [TIFF OMITTED] 
                                 <all>

</pre></body></html>
